<html>
<title> - H.R. 3378, H.R. 4673, S. 484, H. RES. 547, H. CON. RES. 242, H. J. RES. 100, H.R. 1064, H. RES. 451, H. CON. RES. 257, AND S. 2460</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



H.R. 3378, H.R. 4673, S. 484, H. RES. 547, H. CON. RES. 242, H. J. RES. 
       100, H.R. 1064, H. RES. 451, H. CON. RES. 257, AND S. 2460

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2000

                               __________

                           Serial No. 106-179

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
68-814                     WASHINGTON : 2001




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE RADANOVICH, California
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H.R. 3378, to authorize certain actions to address the 
  comprehensive treatment of sewage emanating from the Tijuana 
  River in order to substantially reduce river and ocean 
  pollution in the San Diego border region....................... 1, 46
Markup of H.R. 4673, to assist in the enhancement of the 
  development and expansion of international economic assistance 
  programs that utilize cooperatives and credit unions, and for 
  other purposes.................................................     3
Markup of S. 484, Bring Them Home Alive Act of 2000..............     8
Markup of H. Res. 547, expressing the sense of the House of 
  Representatives with respect to the peace process in Northern 
  Ireland........................................................    11
Markup of H. Con. Res. 257, concerning the emancipation of the 
  Iranian Baha'i community.......................................23, 42
Markup of H. Con. Res. 242, to urge the Nobel Commission to award 
  the year 2000 Nobel Prize for Peace to former U.S. Senator 
  George J. Mitchell for his dedication to fostering peace in 
  Northern Ireland...............................................    24
Markup of H. J. Res. 100, calling upon the President to issue a 
  proclamation recognizing the 25th anniversary of the Helsinki 
  Final Act......................................................    28
Markup of H.R. 1064, Serbia and Montenegro Democracy Act of 1999.    32
Markup of H. Res. 451, calling for lasting peace, stability and 
  justice in Kosovo..............................................    37
Markup of S. 2460, a bill to authorize the payment of rewards to 
  individuals furnishing information relating to persons subject 
  to indictment fro serious violations of international 
  humanitarian law in Rwanda, and for other purposes.............    43

                               WITNESSES

Shirley Cooks, Deputy Assistant Secretary, Bureau of Legislative 
  Affairs, U.S. Department of State, introducing witness from the 
  State Department...............................................    33
Ambassador Larry Napper, Coordinator for Eastern European 
  Assistance, Bureau of European Affairs, U.S. Department of 
  State..........................................................    34

                                APPENDIX

Prepared statements:

Representative Bob Filner concerning H.R. 3378...................    48
Representative Doug Bereuter concerning H.R. 4673................    50
Representative Richard E. Neal concerning H. Res. 547............    52
Representative Christopher H. Smith concerning H. Res. 547.......    54
Representative Joseph Crowley concerning H. Res. 547.............    57
Chairman Benjamin A. Gilman concerning the Smith amendment to H. 
  Res. 547.......................................................    59
Representative Joseph Crowley concerning H. Con. Res. 242........    60

Bills and amendments:

H.R. 3378........................................................    61
    Substitute amendment to H.R. 3378 offered by Representative 
      Rohrabacher................................................    71
H.R. 4673........................................................    80
S. 484...........................................................    85
H. Res. 547......................................................    93
    Amendment to H. Res. 547 offered by Representative Smith of 
      New Jersey.................................................    97
H. Con. Res. 257.................................................    98
H. Con. Res. 242.................................................   104
H. J. Res. 100...................................................   107
H.R. 1064........................................................   112
    Substitute amendment to H.R. 1064 offered by Representative 
      Smith of New Jersey........................................   122
H. Res. 451......................................................   157
    Substitute amendment to H. Res. 451 offered by Chairman 
      Gilman.....................................................   161
S. 2460..........................................................   166

Special remarks:

Discussion of the situation in Southeast Asia....................     7
Tribute to the service of Mr. Seth Foti and to United Nations 
  Humanitarian Workers and Peacekeepers..........................    45

 
H.R. 3378, H.R. 4673, S. 484, H. RES. 547, H. CON. RES. 242, H. J. RES. 
       100, H.R. 1064, H. RES. 451, H. CON. RES. 257, AND S. 2460

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:15 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee on International Relations 
meets today in open session, pursuant to notice, to take up a 
number of legislative items.


       H.R. 3378--RIVER AND OCEAN POLLUTION IN THE SAN DIEGO AREA


    We will first consider H.R. 3378, relating to river and 
ocean pollution in the San Diego area.
    [The bill appears in the appendix.]
    Chairman Gilman. This bill was referred by the Speaker to 
the Committee on Transportation and Infrastructure in addition 
to the Committee on International Relations, in each case for 
consideration of such provisions as fall within the 
jurisdiction of the committee concerned.
    The bill was introduced by Mr. Bilbray and Mr. Filner.
    The Chair lays the bill before the Committee. The clerk 
will report the title of the bill.
    Ms. Bloomer. ``H.R. 3378, a bill to authorize certain 
actions to address the comprehensive treatment of sewage 
emanating from the Tijuana River in order to substantially 
reduce river and ocean pollution in the San Diego border 
region.''
    Chairman Gilman. Without objection the first reading of the 
bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. ``Be it enacted by the Senate and the House of 
Representatives of the United States of America in Congress 
assembled, section 1----''
    Chairman Gilman. The bill is considered as having been 
read. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. I have an amendment at the desk.
    [The amendment appears in the appendix.]
    Chairman Gilman. Is that in the nature of a substitute?
    Mr. Rohrabacher. It is.
    Chairman Gilman. The clerk will report the amendment which 
is on the desks of the Members.
    Ms. Bloomer. Amendment in the nature of a substitute 
offered by Mr. Rohrabacher. ``Strike all after the enacting 
clause and insert the following: Section 1. Short title. This 
act may be cited as the `Tijuana River----' ''
    Chairman Gilman. I ask unanimous consent that the amendment 
in the nature of substitute be considered as having been read 
and as open for amendment at any point. Without objection it is 
so ordered.
    Who seeks recognition? Mr. Rohrabacher.
    Mr. Rohrabacher. I would just say that the substitute I am 
offering changes one particular part of the bill, makes this 
more practical and permits the purpose of the bill, which is to 
protect American citizens along the border from the sewage 
threat--permits the whole plant to function better. Because of 
a glitch, the bill had been written in a way that it would have 
actually been very difficult for us to have contract with the 
companies that were necessary to get the job done. I believe 
that the changes that we have made here are very 
inconsequential.
    Thank you.
    Chairman Gilman. Thank you, Mr. Rohrabacher. I see that we 
have the gentleman from California, Mr. Filner, one of the 
sponsors of the measure. I recognize Mr. Filner on the 
amendment.
    Mr. Filner. I thank the Chairman and Ranking Member for 
your courtesy, for allowing me to be here today, and for acting 
so expeditiously on this bill and for my colleague from 
California for offering the substitute.
    Mr. Bilbray and I have introduced this jointly. There are 
no two people in Congress who could say that 50 million gallons 
of raw sewage flows through their districts. That is sewage 
that comes from Tijuana, Mexico, which unfortunately has only 
plumbing facilities for half of its population. San Diego gets 
the raw sewage in the river valley which flows north into the 
Pacific Ocean.
    So we have been working on this for almost 20 years, Mr. 
Bilbray and I--he as a county supervisor, myself as a city 
councilman. We think we have before you a solution that will 
finally solve the problem. It is a win-win-win-win-win kind of 
legislation. It is a win for the health of American citizens 
who are threatened by the raw sewage; it is a win for the 
taxpayers of this country, who will pay, I am convinced, a 
reduced cost because of the private public partnership involved 
here; it is a win for the Mexican people, who will get recycled 
sewage in the form of water that will help them in agriculture 
and commercial areas; and it is a win for a regional 
environment because we will solve the problem that has been 
with us for 50 years.
    Again, I thank you for taking this up so expeditiously. I 
thank you for relying on the expertise of Mr. Bilbray and 
myself on this and look forward to, finally after 50 years, the 
cleanup of the border environment that has been so harmful to 
both countries.
    Chairman Gilman. I thank the gentleman from California. I 
want to commend Representative Brian Bilbray and Representative 
Bob Filner of California for introducing this important 
legislation and for Mr. Rohrabacher's interest, in addition to 
the work on this measure.
    The San Diego border region is afflicted by an ongoing 
serious problem of sewage-tainted water from the city of 
Tijuana in Mexico flowing down the Tijuana River contaminating 
U.S. seashores and the Tijuana National Estuary Wildlife 
Preserve. Ocean currents carry the contamination to the 
Imperial Beach, Coronado and San Diego area. Our International 
Relations Committee has previously gone on record expressing 
our concern over this issue.
    In 1989 this Committee approved H. Con. Res. 331, 
expressing the sense of Congress concerning the inadequacy of 
sewage infrastructure facilities in Tijuana, Mexico. This is a 
problem that our Nation and Mexico must work together to 
jointly solve. To date, our Nation has provided the lion's 
share of infrastructure to address the problem, to take action 
to comprehensively address the treatment of sewage emanating 
from the Tijuana River area, Mexico. Subject to treaty 
negotiations the bill provides authority to the International 
Boundary Commission to provide for the secondary treatment of 
up to 50 million gallons a day of sewage at a proposed public-
private facility that is located in Mexico.
    I want to thank our Ranking Democratic Member, Mr. 
Gejdenson, for his help in the legislation. I urge our 
colleagues to join in supporting this bipartisan initiative.
    Chairman Gilman. Are there any amendments to the amendment 
in nature of a substitute? Are there any other Members seeking 
to make any comments?
    If there are no amendments, without objection, the previous 
question is ordered on the amendment in the nature of a 
substitute.
    Without objection, the amendment in the nature of a 
substitute is agreed to.
    Mr. Filner. All of us in San Diego thank the Chair and 
thank the Committee.
    Chairman Gilman. Counsel informs me that we need a quorum 
before we can complete our consideration of the bill. The bill 
will be temporarily set aside until the quorum appears; without 
objection, we will now move on to the next measure.


   H.R. 4673--USE OF COOPERATIVES AND CREDIT UNIONS IN INTERNATIONAL 
                          ECONOMIC DEVELOPMENT


    We will now consider H.R. 4673 to assist in international 
economic development, utilizing cooperatives and credit unions. 
This bill was introduced by the distinguished vice Chairman of 
the Committee, the gentleman from Nebraska, Mr. Bereuter.
    The Chair lays the bill before the Committee.
    [The bill appears in the appendix.]
    Chairman Gilman. The clerk will report the title of the 
bill.
    Ms. Bloomer. ``H.R. 4673, a bill to assist in the 
enhancement of the development and expansion of international 
economic assistance programs that utilize cooperatives and 
credit unions, and for other purposes.''
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. ``Be it enacted by the Senate and House of 
Representatives in Congress assembled, Section 1. Short Title--
--''
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open to amendment at any point.
    I now recognize Mr. Bereuter on the bill.
    Mr. Bereuter. Thank you, Mr. Chairman. I want to express 
the reasons for my strong support in initiation of this 
legislation. Indeed, our distinguished Committee colleague from 
North Dakota, Mr. Pomeroy, and I introduced this bill to 
recognize the importance and strengthen the support for 
cooperatives as international development tools.
    I would also like to thank the distinguished gentleman from 
Connecticut, the Ranking Member of the Committee, Mr. 
Gejdenson; the distinguished gentleman from California, Ranking 
Member of the Subcommittee on Asia and the Pacific, Mr. Lantos, 
and the distinguished gentleman from Ohio, Mr. Gillmor, for 
their cosponsorship of this measure and the Chairman for 
permitting us to expedite it.
    The legislation enhances language currently within Section 
111 of the Foreign Assistance Act, which authorizes the use of 
cooperatives in international development programs. 
Specifically, this bill will give priority to funding overseas 
cooperatives working in the following fields: agriculture, 
financial systems, rural electric and telecommunications 
infrastructure, housing and health. Importantly, H.R. 4673 does 
not provide for additional appropriations; and while the 
Administration does not routinely take a position on such 
matters, the Agency for International Development has not 
raised any objections to H.R. 4673 and I think looks kindly 
upon it.
    As you may know, cooperatives are voluntary organizations 
formed to share the mutual economic and self-help interest of 
their members. In the United States, cooperatives have existed 
of course for many years and in many forms, including 
agriculturally based cooperatives, electrical cooperatives and 
credit unions. The common thread among all cooperatives is that 
they allow their members who, for a variety of reasons, might 
not otherwise be served by traditional institutions to mobilize 
resources available to them and to reap the benefits of 
association.
    Since the 1960's, overseas cooperative projects have proven 
successful in providing compassionate assistance to low-income 
people in developing and transitional countries. Today, people 
in 60 countries are benefiting from U.S. cooperatives working 
abroad through projects which can be completed at very little 
cost to the U.S. taxpayer, if any cost at all. The low costs 
are possible because money used for the projects is spent on 
technical and managerial expertise, not on extensive 
bureaucracy and direct foreign assistance payments.
    The benefits of cooperatives as a development tool are, I 
think, numerous. But let me mention examples of the economic 
and democratic results of fostering cooperatives overseas. 
Building economic infrastructure is a key role of course of 
overseas development cooperatives. Through representatives from 
U.S. cooperatives, people who have traditionally been 
underserved in their country, especially those in rural areas 
and especially women, receive technical training never before 
available to them. Such training in accounting, marketing, 
entrepreneurship and strategic planning purposes prepare them 
to effectively compete for the first time in their country's 
economy.
    For example, agricultural cooperatives in El Salvador 
helped to rebuild the once war-ravaged country by providing a 
venue for farmers to pool their scarce resources and scarce 
experience in capitalism so that they can market and sell the 
fruits and vegetables that they grow.
    In rural Macedonia, a small country whose neighbors are 
immersed in ethnic conflict, credit unions providing their 
members a way to build lines of credit and savings for the 
future are an important and new institutional arrangement.
    In rural Bangladesh during the early 1990's, cooperative 
members bought equipment for an electrical project which now 
supplies 5 million people with electric power.
    Cooperatives lay the foundation for future economic 
stability. When reviewing the impact of overseas cooperatives, 
one simply can't ignore the impact they have on assisting 
people in transitional countries to build democratic habits and 
traditions. In forming cooperatives, people who have had no 
previous experience with democracy create an opportunity to 
routinely vote for leadership, to set goals, to write policies 
and to implement those policies. Cooperative members learn to 
expect results from those decisions and that their decisions 
can and do in fact have an impact on their lives.
    I would like to thank the Overseas Cooperative Development 
Council [OCDC] for its contributions to this measure. The OCDC 
represents eight cooperative development organizations which 
have been active in building cooperatives worldwide. The Credit 
Union National Association [CUNA] has also been very supportive 
of this legislation and is a member of the World Council of 
Credit Unions. CUNA has contributed technical assistance to aid 
the growth of credit unions in key transitional countries, such 
as the former Yugoslavia, the Republic of Macedonia and 
Bolivia.
    Again, overseas cooperative projects are simply a good 
investment toward building economic stability and democratic 
habits in developing countries. I urge the Committee to support 
H.R. 4673, and particularly again want to thank my colleague 
from North Dakota, Mr. Pomeroy, for his interest, his active 
support, and his initiatives and ideas in this legislation.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Any other Members seeking recognition? Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, I support the gentleman's 
legislation. I commend him for that. But for purposes of better 
understanding for this Member, I want to ask the gentleman a 
question if I might.
    I wanted to ask Mr. Bereuter, how does this cooperative 
program contrast or appear different from the OPIC program that 
we currently have in giving assistance to companies from the 
United States that make investments in foreign countries? Is 
there a connection between the cooperatives in connection with 
the current operations of the OPIC?
    Mr. Bereuter. If the gentleman would yield for response, I 
would say there is only a potential complementary relationship. 
OPIC does provide some additional financial resources, but what 
this does is provide the technical assistance through USAID to 
help through the American cooperative effort these credit 
unions and these cooperatives working on infrastructure and 
marketing. It will also help them during the elementary stages 
of their existence. So this is really a technical assistance.
    But the other OPIC program does indeed provide some of the 
financial resources that they could use. That is my 
understanding, Mr. Faleomavaega.
    Mr. Faleomavaega. I thank the gentleman for his response. 
Again, I fully support the gentleman's proposed bill.
    Chairman Gilman. Thank you. If no other Member is seeking 
recognition, I will take a few moments.
    H.R. 4673 is a bill introduced by our Committee Members--
Mr. Bereuter, the gentleman from Nebraska, and cosponsored by 
Mr. Pomeroy, the gentleman from North Dakota--and serves to 
enhance and expand international economic assistance programs 
that utilize co-ops and credit unions. This bill encourages the 
formation of credit unions and grass-roots financial 
institutions as a way to promote democratic decisionmaking, 
while concurrently fostering free market principles and self-
help approaches to development in some of the world's poorest 
and neediest nations.
    The bill's purpose is multifaceted, encouraging the 
creation of agricultural and urban cooperatives in the 
telecommunications and housing fields as well as the 
establishment of base-level credit unions. By doing so, the 
bill also promotes the adoption of international cooperative 
principles and practices in our foreign assistance programs and 
encourages the incorporation of market-oriented applications in 
those programs.
    By ensuring that small businessmen and women, as well as 
small-scale farmers have access to credit and also a stake in 
their own financial institutions, our nation will foster the 
key values of self-reliance, community participation, and 
democratic decisionmaking in programs that directly affect 
their lives.
    The bill amends Section 111 of the Foreign Assistance Act 
of 1961, the section of the act that concerns the development 
and promotion of cooperatives by adding specific language that 
promotes agricultural cooperatives, the establishment of credit 
and telecommunications and housing cooperatives. The bill also 
lists these increasingly critical areas of development as 
priorities for foreign assistance programs and requires the 
administrator of the Agency for International Development to 
prepare and submit a report to the Congress on the 
implementation of Section 111 of the Foreign Assistance Act of 
1961.
    I commend my colleagues for drafting this bill, that also 
strengthens the intent and spirit of H.R. 1143, the 
Microenterprize for Self-Reliance Act of 1999 that our 
International Relations Committee reported and the House passed 
last year. Although strides have been made to increase access 
to credit for those who need it most, it is clear to me that 
much more needs to be done to enhance microcredit institutions 
and credit unions, as well as agricultural cooperatives in the 
developing world, to ensure that sound fiscal practices will be 
applied in both rural and urban areas in the world's poorest 
countries. Accordingly, I commend the bill's sponsors once 
again for their efforts to promote the formation of more and 
better-managed cooperatives, as well as the establishment of 
credit unions that are managed by the poor themselves, 
addressing agricultural, housing and health care needs.
    Does any other Member seek recognition? Are there any 
amendments to the bill?
    If there are no further comments, without objection the 
previous question is ordered on the bill.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I thank you for your supportive 
statement. I move that the Chairman be requested to seek 
consideration of the pending bill on the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. Those in favor of the motion, signify 
by saying aye.
    Those opposed say no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chair or his designee is authorized 
to make motions under Rule 20 with respect to conference on the 
bill or a counterpart from the Senate.


             DISCUSSION ON THE SITUATION IN SOUTHEAST ASIA


    Mr. Bereuter. I would ask unanimous consent to address the 
Committee for 1 minute.
    Chairman Gilman. Without objection, the gentleman is 
recognized.
    Mr. Bereuter. Thank you, Mr. Chairman.
    In light of the fact that we have a number of Members here, 
I did want to update the Members very briefly on our intent 
with respect to a couple of things happening in Southeast Asia. 
Already, before we adjourned, we had announced our intention to 
hold a markup on John Porter's legislation that relates to 
Burma. In light of very unfortunate developments, to say the 
least, in Burma, we are updating that legislation; but we 
intend to proceed with a markup on what should be a 
bipartisanly-supported bill with respect to Burma on September 
13, in time for Full Committee action that week.
    Second, I wanted to mention that we had a bipartisan staff 
CODEL visit to parts of Southeast Asia during the recess, 
including West Timor where really tragic things have happened 
in the last few days. I am drafting a resolution on which we 
will work with Republican and Democratic Members, so that we 
will have something ready to address this issue perhaps as 
early as next week as well. I just wanted to advise the Members 
we are not ignoring what is happening in that area. We will be 
taking some action, certainly by next week.
    Thank you, Mr. Chairman.
    Chairman Gilman. Ms. McKinney.
    Ms. McKinney. May I ask Mr. Bereuter a question?
    On the West Timor legislation, will you be addressing West 
Timor or will you be addressing Indonesia and perhaps 
requesting sanctions against Indonesia?
    Mr. Bereuter. On the latter part of your question, we 
certainly do not know at this point, but of course we will be 
addressing West Timor--West Timor being a part of Indonesia. We 
inherently are going to be addressing the difficulties that 
exist in that government controlling violence against 
international observers and the residents of East Timor that 
are still refugees in West Timor.
    Ms. McKinney. Particularly I was thinking about the 
military relationship that this Administration has just renewed 
with Indonesia.
    Mr. Bereuter. That is something that we are going to be 
looking at. What we of course want to do is something that is 
productive and not counterproductive. I think the fact that the 
Millennium Summit is taking place, where President Wahid will 
be in attendance, may have been a factor in the violence 
itself. I hope that is not the case, but it may be the fact.
    So I appreciate your interest, and we will be happy to of 
course work with you if you would like.
    Chairman Gilman. Mr. Faleomavaega.
    Mr. Faleomavaega. I want to commend the gentleman for 
taking a delegation recently to that part of the world. I 
apologize. I would have loved to have been part of that 
delegation.
    In reference to the current crisis in West Timor, I just 
wanted to ask did the gentleman also visit West Papua, New 
Guinea, in his visit to Indonesia?
    Mr. Bereuter. Just to clarify, it was a staff bipartisan 
delegation that visited. This Member and other Members did not 
visit during the recess as far as I am aware.
    Chairman Gilman. Thank you.


                 S. 484--THE BRING THEM HOME ALIVE ACT


    The Committee will now consider Senate bill 484, the Bring 
Them Home Alive Act of 2000.
    This bill was introduced in the other body by Senator 
Campbell, where it was passed on May 24, 2000. The bill was 
referred by the Speaker to the Committee on the Judiciary and 
in addition to the Committee on International Relations ``in 
each case for consideration of such provisions as fall within 
the jurisdiction the committee concerned.''.
    The Chair lays the bill before the Committee.
    [The bill appears in the appendix.]
    The clerk will report the title.
    Ms. Bloomer. ``S. 484, to provide for the granting of 
refugee status in the United States to nationals of certain 
foreign countries in which American Vietnam War POW/MIAs or 
American Korean War POW/MIAs may be present, if those nationals 
assist in the return to the United States of those POW/MIAs 
alive.''
    Chairman Gilman. Without objection, the first reading of 
bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. ``Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled----''
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open to amendment at any point.
    Is any Member seeking recognition? Mr. Rohrabacher.
    Mr. Rohrabacher. I rise in strong support of this 
legislation. Senator Campbell, as we all know, is a Korean War 
veteran and a former Member of this House and now a Member of 
the Senate, a good friend of all of ours who feels very 
strongly about this issue.
    I would like to remind my colleagues that there is a 
million dollar reward that is still outstanding for anyone who 
would help us overseas in retrieving an American POW from 
Southeast Asia. This bill would add to that some sort of 
protection for anyone, if there is an American POW still alive 
in Southeast Asia, that would provide that a foreign national 
in Vietnam or in Laos or in other countries would be able to 
come to the United States and enjoy that reward, if indeed an 
American POW is delivered to us.
    There is reason for us to take this issue seriously. I know 
that many people would like to think that this is fantasizable, 
but it is not. From the very beginning I remember as a young 
reporter interviewing Richard Nixon the day after an 
announcement was made that people would be coming home; and I 
asked him, as a young reporter out in California, why he felt 
they were going to get everybody back. His answer was not clear 
to me then, and after everyone came home, there were lists of 
people who could justifiably have been last seen alive in enemy 
hands. President Nixon's explanation did not seem to hold water 
with me then. Over the years I have spent time in Southeast 
Asia--and I did spend time in Southeast Asia in 1967, as well--
and Vietnam. It didn't seem that with the war going on in 
Vietnam, the war still going on in Laos, the war going on in 
Cambodia, I didn't understand how the North Vietnamese were 
going to give everybody back. So it is possible that they held 
people behind.
    We know now that not one American POW who was returned was 
ever interrogated by a Russian, for example, which leads us to 
believe that there was a two-tier system, a prison system. Pete 
Peterson himself, our former colleague, now Ambassador to 
Vietnam, talked to me just after the floor debate last month 
about this issue and admitted to me that he was wrong when he 
told Members of the House that all the records from American 
prisons had been given. In fact, he was wrong and the 
Vietnamese have never given us the records for the prisons in 
Vietnam where American POWs were held. That is one way we could 
verify how many prisoners they had.
    Last, let me just say that I worked in the White House for 
7 years and the very last conversation that I had with 
President Reagan in the White House concerned American POWs in 
Southeast Asia. President Reagan personally verified for me 
that he had been notified as President of the United States 
that American POWs were still alive in Southeast Asia, but he 
was told that they were now married to local women, had local 
families, and didn't want to come home. Unfortunately, I didn't 
have time--that was my last day at the White House--to followup 
on that. But I would certainly like to know who talked to those 
American POWs and determined that they didn't want to come 
home.
    So there is been a lot of murky activity on the part of our 
government and our military, and especially the communist 
governments in Southeast Asia on this issue. It deserves our 
putting a message out, which this bill does say, that anyone, a 
government official or nongovernment official, who could help 
us get back one of those people who Ronald Reagan was talking 
about or a prisoner of war who has been kept there all these 
years, would find refuge in the United States and could enjoy 
the reward that is being offered in the private sector.
    So I would say to my colleagues that we can't lose anything 
by passing this kind of legislation, and let's pray if there is 
anyone alive there, that this offer is an avenue out.
    I yield back the balance of my time.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Are any other Members seeking recognition?
    If not, I will take a few moments.
    I am pleased to bring before the Committee today S. 484, 
the ``Bring Them Home Alive Act'' introduced by Senator Ben 
Campbell, the other Senator Campbell. This legislation 
addresses a continuing deep concern of our veterans, our 
families, and Members of Congress in accounting for those U.S. 
military service members who disappeared during the course of 
the Vietnam and Korean Wars.
    The year 2000, which marks a half century since the 
outbreak of the Korean War and a quarter century since the end 
of the Vietnam conflict, is a particularly fitting time to 
address this issue. As we move forward to meet the global 
challenges of the new century, we should seek, to the best of 
our ability, to address the unfinished business of the old, 
including the fullest possible accounting of our POWs and MIAs.
    Foremost among the unresolved issues is doing what we can 
to relieve the anguish of those who lost loved ones on the 
battlefield in defense of freedom and who lack any confirmation 
with regard to their final fate or resting place.
    Those who can assist in bringing home our servicemen 
deserve concrete recognition by our nation for their efforts. 
It seems altogether appropriate to grant refugee status in the 
United States for nationals of nations where American Vietnam 
War and Korean War POW/MIAs may still be present and who assist 
in their safe return.
    As the title of this bill states, let us do all that we can 
to bring them home alive.
    I would like to urge my colleagues on our Committee to 
fully support this bill. I ask that the Judiciary Committee 
move forward as quickly as possible. I hope to see it on the 
floor at an early date for consideration by the House.
    Are there any other Members seeking recognition?
    If there are no other Members seeking recognition, are 
there any amendments to the bill?
    If there are no amendments, without objection the previous 
question is ordered on the bill. The gentleman from Nebraska, 
Mr. Bereuter, is recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending bill on the 
suspension calendar.
    Chairman Gilman. Thank you, Mr. Bereuter. The question is 
on the motion of the gentleman from Nebraska. Those in favor of 
the motion, signify by saying aye.
    Those opposed, no. The ayes have it. Without objection, the 
Chair or his designee is authorized to make motions under Rule 
20 with respect to a conference on this bill or counterpart 
from the Senate.


     H. RES. 547--RELATING TO THE PEACE PROCESS IN NORTHERN IRELAND


    Chairman Gilman. We will now consider H. Res. 547 relating 
to the peace process in Northern Ireland.
    The Chair lays the resolution before the Committee.
    The clerk will report the title.
    [The resolution appears in the appendix.]
    Ms. Bloomer. ``H. Res. 547, a resolution expressing the 
sense of the House of Representatives with respect to the peace 
process in Northern Ireland.''
    Chairman Gilman. Without objection, the clerk will read the 
preamble and text of the resolution, in that order, for 
amendment.
    Ms. Bloomer. ``Whereas the April 10, 1998, Good Friday 
agreement established a framework for the peaceful settlement--
--''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point. Are there any Members----
    Mr. Gejdenson. I have an amendment.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. I am just going to 
speak for a moment.
    This is a terribly important resolution, and I just want to 
yield to my good friend and colleague, Mr. Neal, who has really 
led the effort here. We have got to have a real peace in 
Northern Ireland. It is going to have to include a police 
department reflective of the population and not the present 
one.
    I yield to Mr. Neal.
    Chairman Gilman. Mr. Neal, we welcome having the gentleman 
from Massachusetts who is the original sponsor of the bill. I 
recognize Mr. Neal.
    Mr. Neal. We don't have this kind of technology at the Ways 
and Means Committee. We have to shout at each other.
    I do want to thank you, Mr. Chairman. I want to thank Mr. 
Gejdenson because much of the strong leadership emanating from 
the Congress has come from this Committee in the words of you 
and Mr. Gejdenson on this issue. It is delightful that such 
bipartisanship prevails on this issue. If I could, I might take 
3 or more minutes to read a statement because I think that 
statement is that important.
    Chairman Gilman. Without objection.
    Mr. Neal. On June 29 of this year, I wrote a letter to 
British Secretary of State Peter Mandelson on the important 
issue of policing in its future in the north of Ireland. 
Knowing the interest that many of my colleagues have in Irish 
affairs, I asked him to cosign the letter. With the Police Bill 
being debated in the House of Commons, I felt it was 
appropriate to share our thoughts and concerns with Secretary 
Mandelson about this essential component of the peace process. 
More than 120 Members of the Congress signed the letter, an 
unprecedented number, in urging the British Government to fully 
implement the Patten reforms on policing.
    Over 2 years ago, the vast majority of the people on the 
island of Ireland voted for the Good Friday Agreement. People 
of both traditions said yes to a future of peace, justice and 
reconciliation. Included in that historic accord was a 
provision that established an Independent Commission on 
Policing that would make recommendations for future policing 
structures and arrangements. Its mandate was to create, ``a new 
beginning to policing with a police service capable of 
attracting and sustaining support from the community as a 
whole.''
    Later that fall, Commission Chairman Chris Patten, a 
Conservative member of the British Government, traveled to 
Washington to brief Members of Congress on his report. He told 
us that his primary objective was to take politics out of 
policing and then outlined the 175 recommendations made by the 
Commission, including changing the name, the flag, and the 
emblems of the Royal Ulster Constabulary, a new oath for all 
officers, a new recruitment strategy and more accountability 
and community involvement, in essence, a new police service 
that reflects and can serve all traditions equally in the six 
counties.
    Policing is a touchstone issue for the nationalist and 
republican communities. Across the island of Ireland, they have 
spoken with one clear and unambiguous voice on this important 
matter. From the SDLP to religious leaders to the Irish 
government and Sinn Fein, their message is simple: the Patten 
Report should not be diluted, minimized or altered by the 
British Government. In the letter and spirit of the Good Friday 
Agreement, it must be implemented in full.
    The resolution that I have introduced in the House of 
Representatives and Senator Kennedy has introduced in the 
Senate would put this Congress on record in the debate. It 
would add our strong voice to the growing list of individuals 
and groups internationally who support the full implementation 
of the Patten Report. Indeed, it was Chris Patten himself who 
advised, ``in the strongest terms against cherry picking in 
this report;'' and suggested, ``The recommendations represent a 
package which must be implemented comprehensively if the north 
of Ireland is to have the policing arrangement it so badly 
needs.''
    I urge my colleagues to follow his advice and support House 
Resolution 547. And once again I thank you, Mr. Gilman; and 
thank Mr. Gejdenson as well as Members of this Committee for 
the strong leadership you have offered on this question.
    [The prepared statement of Mr. Neal appears in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Neal, for being here.
    I might note that Mr. Neal is cochair of the Ad Hoc 
Committee on Irish Affairs.
    I now call on Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. I want to 
thank you, I want to thank Mr. Neal and the bipartisan group of 
lawmakers who have sponsored H. Res. 547; and I am very proud 
to be among those who are fully supporting it and cosponsoring 
it.
    Mr. Chairman, as Chairman of the Subcommittee on 
International Operations and Human Rights and also as Chairman 
of the Helsinki Commission, I have held five hearings on the 
human rights situation in Northern Ireland. The need to reform 
the RUC, if not disband it altogether, was a common theme in 
those hearings.
    Later this month I plan to convene yet another hearing of 
the Helsinki Commission to examine the areas in which the 
British Government's current Police Bill falls short in fully 
implementing the Patten Commission's recommendations. 
Unfortunately, as my good friend from Massachusetts just 
pointed out, there are clear indications that the current bill 
falls far short in several areas and that, if enacted, will not 
generate the cross-community support that a new police service 
in Northern Ireland needs.
    Nearly 1 year ago, on September 24, 1999, Chris Patten and 
Senator Maurice Hayes appeared before our subcommittee to 
discuss the Patten Commission's 175 recommendations for 
reforming the police service in the north of Ireland. At the 
hearing they described the themes running through the 
Commission's report. The first thing was accountability, the 
second was transparency, the third was respect for human 
rights, and the fourth was community representative 
effectiveness and efficiency.
    Senator Hayes also said, ``The Holy Grail in all of this is 
the participation of young Catholic and nationalist people in 
the police force.'' At the meeting with Commissioner Patten, I 
stressed, as did many of us here today, that the Patten report 
actually fell short, did not go far enough, because there was 
no vetting of what the Commission calls ``bad apples,'' those 
who had committed egregious abuses in the past.
    Despite this flaw, Mr. Patten and his fellow commissioners 
seemed to understand that community policing cannot be achieved 
in Northern Ireland without bringing Catholics and nationalists 
into a police service that is representative of and accountable 
to the community it serves.
    Though there was no vetting in the recommendations, there 
were other changes that would make the force at least more 
accountable--an ombudsman, for example, a human rights oath, 
local boards that could oversee the police. These methods of 
accountability are a bare minimum, and Patten himself stated 
that his report must be taken in full that there would be no 
cherry picking if it is to live up to the spirit and the intent 
of the Good Friday Agreement.
    Unfortunately for the people of Northern Ireland, recent 
indications, again from London, suggest that the British 
Government is out of touch with what it would take to bring the 
Catholics and the nationalists into the police service in the 
north of Ireland. Northern Ireland Secretary Peter Mandelson 
insists that the government's Police Bill does implement the 
Patten report and will result in a reformed police service. The 
major nationalist political parties, however, have made clear 
that they will not encourage their constituents to join the 
police service until it is reformed in accordance with all of 
the Patten recommendations, the 175 recommendations, and that 
is their strongest recommendation.
    Mr. Chairman, I would ask that my full statement be made a 
part of the record. This resolution again puts us on record, 
again expresses a very clear nonambiguous line of thought from 
the Congress that we want real reform. Band aids, sugar 
coating, some change but not going far enough, will not lead to 
the kind of credibility for the RUC that has been riddled with 
human rights abuses in the past. It has got to be done and made 
over from top to bottom.
    Again, this resolution, the upcoming hearing, hopefully 
will impress upon the members of Parliament in Great Britain 
that we are watching very closely and we would like to see some 
real reform with regard to the RUC.
    I thank the Chairman.
    [The prepared statement of Mr. Smith appears in the 
appendix.]
    Chairman Gilman. Without objection, the gentleman's full 
statement will be made a part of the record. The gentleman will 
hold his amendment until we finish the statements and we will 
continue.
    Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman, for first of all 
holding this important markup today on Resolution 547, 
legislation expressing the sense of the House with respect to 
the peace process in the north of Ireland. Your leadership on 
Irish issues, as well as that of Ranking Member Gejdenson, is 
deeply appreciated by myself and other members of the Irish 
community.
    I would also like to thank my good friend and colleague, 
Congressman Richard Neal, for introducing Resolution 547 and 
for all of his hard work on this and other issues of importance 
to the Irish-American community. As Chairman Gilman has pointed 
out, although not a member of this Committee, he has cochaired, 
along with myself, Chairman Gilman and Representative Pete King 
of New York, the congressional Ad Hoc Committee on Irish 
Affairs. So I know personally of his deep commitment to these 
issues.
    On June 5, the Northern Ireland Assembly resumed its 
important work after 4 months in limbo because of the issue of 
decommissioning. Many in the international community, the 
press, and the public placed the blame for the suspension of 
the Assembly squarely on the shoulders of the IRA.
    Although I disagree with that assessment, I want to point 
out that important progress has been made on the issue of 
decommissioning, the issue that the unionist community has 
often singled out as one of great importance. Unfortunately, a 
delay on a related issue, one that is of paramount importance 
to the nationalist community in Northern Ireland, the issue of 
police reform, has not been met with the same international 
criticism.
    The Patten Commission report, entitled ``Policing in 
Northern Ireland: A New Beginning,'' was intended to be a 
compromise on the very delicate issue of police reform. While 
many of the unionist community view the RUC with respect, too 
many in the nationalist community have lived under what is 
considered an occupying army in the guise of a police force.
    The Patten Commission report was undertaken under the 
authority of the Good Friday Agreement to help change this 
situation. From the beginning, people in both communities knew 
it would be a compromise between the two sides. While no side 
was entirely happy with the 175 specific recommendations, many 
of the nationalist community felt it was more important to move 
forward with the police reform than to hold up the process.
    I continue to believe that a true new beginning on policing 
in Northern Ireland requires a brand-new police force, not 
changes to one; that has been viewed with great suspicion by 
well over 40 percent of the population in the north of Ireland. 
At the very least, I view the Patten Commission recommendations 
as an absolute minimum, not an a la carte menu for the British 
Government to pick and choose from.
    Unfortunately, the British Government has done exactly 
that. Instead of adhering to the language and spirit of the 
Good Friday Agreement, they are sending legislation through 
Parliament that does not fully implement the Patten 
recommendations. This is not only wrong, it is dangerous to the 
peace process.
    Dr. Gerald Lynch, a member of the eight-member independent 
Patten Commission on Policing and president of New York's John 
Jay College of Criminal Justice, stated that the Patten 
Commission's suggestions on reforming the RUC should not be 
watered down by the British Government and expresses concern 
that doing so could damage the peace process significantly.
    The legislation introduced by the British Government will 
likely go to the House of Lords in early October and return to 
the House of Commons for its final consideration shortly 
thereafter. That is why this legislation is of such critical 
importance and urgently needed.
    I urge my colleagues to cast their vote in favor of this 
legislation. I urge the British Government to do the right 
thing and fully implement the Patten report.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Crowley.
    Mr. King, another Cochairman of our Irish Ad Hoc Committee.
    Mr. King. Thank you, Mr. Chairman.
    At the outset, I want to commend you for the tremendous 
leadership you have shown on this issue for many years, 
particularly of course during the years as Chairman of this 
Committee. Along with Mr. Crowley, I want to commend Mr. 
Gejdenson for the bipartisan spirit with which he has always 
engaged this issue; and of course, Congressman Neal for many 
years has done a truly outstanding job. I think the fact that 
he is the author of this resolution today speaks volumes both 
to his dedication and also to the concern that so many 
Americans have in this country that the Patten Commission 
report is not being fully implemented.
    I also want to thank Chairman Smith for the truly landmark 
work, ground-breaking work that he has done in pushing forth 
human rights issues as far as the whole Irish situation is 
concerned. His hearings have gone really right to the very 
heart of what is wrong with the police system in Northern 
Ireland, with the security forces in Northern Ireland, and his 
amendment today is just another example of that.
    And as far as Mr. Crowley, of course, he has been dedicated 
for many years, long before he came to the Congress and even 
more so now that he has been in the Congress.
    I join in strong support of this resolution today. I concur 
in everything that has been said by the previous speakers, 
especially the fact that, as Chairman Smith said, the Patten 
Commission report itself was a compromise.
    The Good Friday Agreement was a compromise. What the 
British Government is doing now with the Patten Commission 
report is attempting to compromise a compromise. It is taking 
the heart and soul out of the recommendations of the Patten 
Commission. It is emasculating that report. It is coming up 
with an end product which is not going to in any way ameliorate 
the concerns of the nationalist community.
    We have to emphasize, when we are talking about the 
nationalist community, we are talking about all the political 
parties in the nationalist community. This is not a partisan 
issue on that side; whether it is Sinn Fein, whether it is the 
SDLP or even others who are not aligned, they realize that the 
legislation put forth by the British Government just takes away 
the heart and soul of the recommendation of the Patten 
Commission report.
    It is going to result in a police force which is just 
slightly different from the one that exists today. It is one 
which young Catholics would not want to join, because they 
realize the inherent weaknesses and deficiencies, the inherent 
immorality of the current force will not have been rooted out. 
Instead, it is just going to put a protective covering over the 
immoral, disgraceful human rights violating force which is in 
effect today under the guise of the RUC.
    Like the previous speakers, I would have preferred that the 
RUC itself be gutted, that it be restructured, that it be 
abolished, that it be changed root and branch. The Patten 
Commission didn't do that. As Chairman Smith said last year 
when Commissioner Patten was in here, we had serious 
differences with him believing that his Commission report did 
not go far enough. Now we find the situation where that report 
itself is being dramatically watered down.
    Police reform in Northern Ireland is a metaphor for the 
entire Irish peace process. The immorality the human rights 
violations, the bias, the discrimination, the immoral 
activities of the RUC are a metaphor for the living conditions 
under which nationalists have had to live for the last 80 
years. If the police reforms are not enacted, then it is hard 
to believe and see how the Good Friday Agreement itself can be 
enacted.
    This has to be all-encompassing. You cannot compromise a 
compromise. You cannot, in turn, dilute a report which is 
already diluted enough. If the Patten Commission report is not 
adopted in toto by the British Parliament, then I have to agree 
with Mr. Lynch and Mr. Crowley--Mr. Lynch being a member of the 
Patten Commission, who said that he thinks the peace process 
itself could crumble if the Patten Commission report is not 
enacted in toto.
    So I give my strongest endorsement to this resolution 
today. As always and on so many previous occasions, I commend 
Congressman Neal for being a leader, for having the foresight 
to introduce this resolution, as he said, to get really 
unprecedented numbers of signatures on the letter to Secretary 
of State Mandelson who should realize that the United States, 
no matter which party is in power in either the White House or 
Congress, that we stand together as one on this issue. The 
American people stand together as one; we will not be divided 
among partisan lines. We stand together, united, calling for 
the full implementation of the Good Friday Agreement, and 
essentially also as an absolute part of that integral part of 
the Patten Commission report.
    I yield back.
    Chairman Gilman. Thank you, Mr. King.
    Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman. I also want to 
commend Mr. Neal.
    When I arrived here at the Congress 8 years ago, I joined 
the Ad Hoc Caucus--and Menendez is really an Irish name; the 
Spanish Armada invaded parts of Ireland, but then they got 
kicked out. Nonetheless, I have enjoyed working with Richie and 
the rest, and I appreciate his tenacious but balanced approach 
to the issue. I think many times he has been a very important 
voice in moving us forward.
    I am pleased to be an original cosponsor of this 
resolution, and I would like to get right to the point. With 
this Sense of Congress, we commend the parties for the progress 
made so far. But we are also calling on the British Government 
to come to its senses on the issue of police reform.
    All parties to the peace process in Northern Ireland must 
be praised for the progress they have made to date. The Good 
Friday Agreement still stands as a remarkable achievement and 
the best hope for lasting peace in Northern Ireland. I am 
pleased also to cosponsor another resolution on Northern 
Ireland we will deal with today, one that urges the Nobel 
Commission to award its Peace Prize this year to George 
Mitchell for his untiring efforts to forge a nonviolent and 
fully democratic future for Northern Ireland.
    The seating of Northern Ireland's new executive and the 
ensuing reestablishment of the power-sharing Assembly have 
indeed been crucial to solidifying peace in Northern Ireland. 
It would not have been possible had the IRA not allowed its 
weapons dumps to be inspected and its weapons declared out of 
commission by a distinguished group of international verifiers 
led by Martti Ahtisaari and Cyril Ramaphosa.
    Decommissioning was one of the two most pressing and 
sensitive issues facing Northern Ireland, but the other is 
police reform. Without full implementation of the 
recommendations of the Patten Commission, a commission called 
for in the Good Friday Agreement, the peace process will remain 
lopsided, and a full peace will remain elusive.
    Common sense calls for a radical change in the police 
force, for the name of the Royal Ulster Constabulary [RUC] (I 
cannot imagine a more British-sounding name) to be changed; and 
for the membership in the police force, now 93 percent 
Protestant and 7 percent Catholic, to be more equitably formed 
to reflect the 42 to 58 percent population split in the 
community.
    Here in America, in communities across the country, we 
raise the issues of police forces that do not reflect the 
communities that they are called upon to serve. And this 
situation of the Royal Ulster Constabulary far exceeds any 
problem that we have in America. Peace cannot be achieved when 
those with the badge, the legal authority, but ultimately those 
with the gun--the ultimate authority who are supposed to 
provide peace to the people--are seen as oppressing them.
    We are once again at a perilous point. The answers lie in 
moving forward to full implementation of the Good Friday 
Accord, including the full implementation of the Patten 
Commission, to full participatory, accountable and 
representative government and the rule of law as is represented 
in the police force in Northern Ireland, not in stagnation and 
trepidation.
    I am glad to join my voice with all of those of our 
colleagues in sending this message, that we must have a police 
force that is truly representative of the people of Northern 
Ireland that they can have faith in, and that when someone puts 
on the badge and the ultimate authority of the gun, that people 
can have faith and confidence that they will be protected as 
well as served.
    Chairman Gilman. Thank you, Mr. Menendez.
    We will continue right on through the voting. We have one 
of our Members going over so that we will not pause for any 
recess, but we will continue right on through.
    Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I am going to take 
this occasion to commend my friend and colleague from 
Massachusetts, Richie Neal, for his leadership, particularly 
coming from Massachusetts where so many of our citizens are of 
Irish-American heritage. He has certainly demonstrated 
leadership, vision and a persistence that is so important to 
those of us in Massachusetts, to those of us in America and to 
people who are concerned about justice all over the planet.
    We are very proud of you, Richie.
    I am going to be very brief. I just would echo the 
sentiments expressed by many who have preceded me. I think the 
bottom line here is very clear. If the peace agreement is going 
to survive, if there is truly going to be a reform of the 
police service in Ireland, there has to be a reconfiguration of 
the police service. And the most significant aspect of that is 
a balance between the demographics of those that serve in the 
police force. Clearly, we have heard the statistic already, 93 
percent Protestant, 7 percent Catholic; that is just 
unacceptable and unconscionable.
    It is also clear that if there are not changes in the 
proposal before the British Parliament today, the nationalists, 
the Catholics within Northern Ireland, will not be attracted to 
the police service and therefore we will not have the reform 
that is so necessary to the fulfillment of the Good Friday 
Agreement.
    I think this is a very important resolution because it does 
speak, as Peter King alluded, for all of us--Democrats, 
Republicans, people from various faiths and different ethnic 
backgrounds.
    I would suggest again that I think it would have been a 
better course if we had started from scratch, if the RUC had 
been abolished and we began again. But that is not the case, 
that is not the reality.
    But I think it is important to understand that the Patten 
Commission report has within it a coherence. And I think 
someone--it might have been you, Representative Neal, who used 
the term ``cherry picking.'' But once you begin to separate and 
divide and extract pieces here, it loses its coherence; and for 
those of us who have a background in law enforcement, we know 
how significant and important it is to have that coherence 
because of its relationship to the community.
    Clearly, as it is principally being proposed, without 
amendment, it will lack that coherence. This is important that 
I would urge this, and I know I am confident that this will 
pass unanimously in this Committee and hopefully come to the 
floor.
    Again, thank you, Representative Neal, for bringing this to 
our attention and leading this cause.
    Chairman Gilman. Thank you, Mr. Delahunt.
    I am pleased the Committee is considering this measure, H. 
Res. 547, a bill introduced by Mr. Neal of Massachusetts; and I 
want to thank him for bringing it to our Committee. I joined as 
an original cosponsor, as did many on this Committee from both 
sides of the aisle who are familiar with the problems in 
Northern Ireland.
    Last spring, the IRA's efforts at putting arms beyond use 
and having that verified by outside observers showed good 
courage and good faith. This made it possible for the power-
sharing executive to get up and running, and for real, peaceful 
democratic change.
    As part of that arrangement to restore the executive, in 
May 2000 the British and Irish Governments made a firm 
commitment to the nationalist community to fully implement the 
Patten Commission policing reforms that form a core portion of 
the Good Friday Accord for a new beginning in policing. The 
British Government and the unionists have failed to show a 
similar good faith that the IRA has exercised. They need to 
live up to their agreements in the Good Friday Accord, 
especially concerning full RUC police reform as envisioned by 
the Patten report of September 1999, a report that was issued 
consistent with the terms of the Good Friday Accord and was 
itself a compromise that was not agreed upon by all.
    The Irish National Caucus supports the bill, as does Sinn 
Fein. The Socialist Democratic Labor Party, the largest 
nationalist Catholic party in the north of Ireland whose 
leader, John Hume, was the winner of the Nobel Peace Prize, 
wants Patten fully implemented. The SDLP's Deputy Minister in 
charge of the new executive has said failure to implement 
Patten policing proposals will have a damaging effect on the 
whole psyche of the fledgling political process. We do not 
want, nor can we afford that kind of result.
    The Washington Post noted in July that the onus remains now 
on the British Government to respond to Catholic objections on 
failure to fully implement all of Patten's police reforms, 
since these reforms were part of the agreement on the Good 
Friday Accord. To date, they have not responded.
    We hope to see full and meaningful police reform happen, 
not a continuation of the old British Government/unionist 
politics being played with a one-sided veto over the policing 
issue. The Patten report reforms should and must be fully 
implemented as is, and done so now, as promised, and no longer 
delayed.
    A 93 percent Protestant police force is a nearly equally 
divided society, which does not have the support and confidence 
of many in the nationalist Catholic community. That must be 
changed as the Roman Catholic community and the party leaders 
want, demand, and are entitled to. Politics as usual must end 
over there.
    All of our International Relations Committee Members who 
want lasting peace and justice to take hold in Northern Ireland 
must act favorably on this. We hope to see change soon.
    I recognize Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to 
personally commend the gentleman from Massachusetts, my dear 
friend, Mr. Neal, for his authorship of this very important 
legislation.
    I also want to compliment the chief sponsors of this 
legislation. You know, with Irish names like Faleomavaega and 
Campbell and Neal and Delahunt, how could we do otherwise? I 
want to associate myself with all of the compliments and the 
comprehensive statements that have been made by Members of this 
Committee on both sides of the aisle.
    And again commending Mr. Neal for doing an outstanding job 
in authoring this legislation, I also personally want to 
commend the former Senator from Maine, Mr. George Mitchell, for 
an outstanding job in trying to resolve the very serious 
problem there in Northern Ireland.
    Thank you, Mr. Chairman. I urge the Members of our 
Committee to pass this resolution.
    Chairman Gilman. Thank you, Mr. Faleomavaega.
    There will be a brief recess and we will take up the Smith 
amendment as soon as we return. Thank you.
    [Recess.]
    Mr. Bereuter [presiding]. The Committee will be in order 
and resume its markup.
    The gentleman from New Jersey, Mr. Payne, is recognized for 
his statement.
    Mr. Payne. Thank you, Mr. Chairman.
    I would like to add my support to H. Res. 547, expressing 
the Sense of the House with respect to the peace process in 
Northern Ireland. I associate myself with the remarks of the 
previous speakers as they discussed the Patten Commission. I 
would like to commend Congressman Richard Neal and the others 
who have been so involved with this--Mr. Crowley, Mr. 
Gejdenson, Mr. Gilman.
    As you may know, I have been very interested and involved 
in activities in the north of Ireland, and just this past 
marching season was again on Garvaghy Road where I stayed 
during the July 4th Orange Order March in Drumcree. I was there 
when Johnny Adair, who is a known drug pusher and criminal, 
marched with the Orange Order. It was a disgrace that they 
would allow such a notorious person to be with their order.
    The RUC has to be totally disbanded. The process of 
bringing in people at the bottom, which would once again 
continue to push those who are currently members of RUC up to 
positions of authority, would mean that it would take a century 
before nationalists could work their way up to any kind of 
responsible positions.
    As a matter of fact, I believe that in the RUC's oath of 
office, members still have to swear allegiance to the Queen. I 
don't know whether a nationalist would feel comfortable because 
that person does not represent the thinking of the nationalist 
community.
    They are in the reconstruction of the new organization--
they still have kept some basic incorporations which talk about 
the old RUC. So I think that, as was done in Haiti where the 
police were the military and they controlled the streets, they 
disbanded the entire military and started from scratch with the 
new police force; and that is really what has to happen here.
    The arrogance of Ronnie Flanagan and his officers, their 
behavior, looking the other way in the case of Rosemary Nelson 
when she knew that her life was in jeopardy. The RUC did not 
provide any special protection, still the question in the case 
of Pat Finucane. I believe that Bloody Sunday should still be 
opened and reviewed again, and that is something that we must 
see happen so that there can be a true accounting of what 
happened there in 1972.
    I would like to commend Mr. Blair for his initial move in 
the right direction; but it seems like there are some forces in 
Britain that are pushing Mr. Blair away from his original 
direction, and I think it is unfortunate.
    So I join with my colleagues. I will continue to push. The 
marching season once again brings out the worst. They 
fortunately were prevented from going down to Lower Ormean Road 
in Belfast and also off of Garvaghy Road.
    But there have still been the tensions. I believe, as my 
colleagues have said, we need to disband the RUC totally and 
start all over again. So Mr. Chairman, I appreciate Richie Neal 
and those who have brought this resolution to the floor, and I 
wholeheartedly support it as a cosponsor. Thank you, Mr. 
Chairman.
    Mr. Bereuter. Thank you Mr. Payne.
    The gentleman from New Jersey, Mr. Smith.
    Mr. Smith. I have an amendment at the desk.
    Mr. Bereuter. The clerk will report the amendment.
    [The amendment appears in the appendix.]
    Ms. Bloomer. ``Amendment offered by Mr. Smith. Strike the 
9th clause of the preamble and insert the following: Whereas 
many of the signatories----''
    Mr. Bereuter. I ask unanimous consent that further reading 
of the amendment be dispensed with. The Chair recognizes the 
gentleman from New Jersey to speak to his amendment.
    Mr. Smith. Thank you, Mr. Chairman. The amendment I have 
proposed highlights some of the criticisms that have been 
voiced by nationalist parties, human rights groups and other 
observers of the policing bill and about the British Government 
bill's failure to fully and faithfully implement the Patten 
Commission's recommendations.
    Specifically, the amendment notes that the proposed bill 
would fail to create key accountability structures envisioned 
by the Patten Commission because the bill fails to give the 
policing board and the police ombudsman the broad authority 
they need to conduct inquiries into police practices and 
policies without political interference.
    Mr. Chairman, there is an astonishing new proposal that the 
secretary of state can overrule--overrule the board if he or 
she determines that the inquiry would serve, ``no useful 
purpose.'' I mean that just completely vitiates the authority 
of the board, when for political reasons the secretary of state 
for Northern Ireland so construes it. And that is an absolute 
fatal flaw.
    This amendment at least tries to say to the British 
Government, we are watching. You can't expect us to accept that 
this is a faithful adherence, especially to the Patten 
recommendations, when you build in that Achilles heel.
    The amendment also notes that the British bill would fail 
to appoint a commissioner to oversee implementation of all of 
the Patten Commission's 175 recommendations and instead would 
limit the commissioner to overseeing all those changes in 
policing which are decided upon by the British Government.
    Finally, the amendment notes that the British Government's 
bill would exempt existing RUC officers from taking an oath 
expressing their commitment to uphold human rights, despite the 
fact that one of the Patten report's very first recommendations 
was that all new and existing officers take such an oath as an 
important step toward focusing the Northern Ireland police 
service on the human rights approach. In other words, the same 
ones that were worried about that have not been looked at in 
terms of vetting, because that was completely bypassed by 
Patten himself. Now they don't even have to take the oath to 
uphold human rights, a glaring omission on the part of the 
British Government.
    We hope that they will take note of this and make the 
necessary changes. I hope the Committee will support the 
amendment.
    Mr. Bereuter. Thank you, Mr. Smith.
    Are there Members seeking recognition? The gentleman from 
Florida.
    Mr. Hastings. Mr. Chairman, only for just a moment of 
levity. I support the amendment and the underlying bill and 
wanted to compliment Mr. Neal, our colleague, and let him know 
that Mr. Payne has spoken in your absence; but I want you to 
know the rest of us black Irishmen are with you, too.
    Mr. Bereuter. The gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I want to thank my 
cousin, Mr. Hastings, for his kind remarks.
    I want to speak in strong support of Chairman Smith's 
amendment. I believe this amendment is entirely compatible with 
the underlying resolution of Mr. Neal, and it is important when 
we discuss this issue to realize we are not just talking about 
philosophical extractions, we are talking about reality.
    The fact is that the Royal Ulster Constabulary has been 
guilty of egregious human rights violations over the years. In 
just two instances there is strong evidence not just of 
brutality, not just of violence, but of outright complicity in 
murder. Just 12 years ago, a good friend of mine, Patrick 
Finucane, the human rights lawyer in Belfast, was murdered, 
shot dead by loyalist paramilitary forces. Every month that 
goes by, increasing evidence comes out of collusion by the 
Royal Ulster Constabulary in that murder.
    I guess it was just 2 years ago, Chairman Smith held a 
hearing here, and had a human rights lawyer, Rosemary Nelson, 
testifying, saying how she felt her life was being threatened 
and that she felt that the security forces, including the Royal 
Ulster Constabulary, were hostile to her. Just several months 
after that she was also murdered. And again there was 
increasing evidence that the Royal Ulster Constabulary was 
involved in that murder.
    So this is what we are talking about. We are not just 
talking about a force that occasionally may be brutal, 
occasionally may be violent, that maybe has a few bad apples. 
We are talking about a police force which is rooted in 
brutality, rooted in the most graphic and vicious human rights 
violations and, yes, guilty of murder itself.
    Those of us who follow the situation--and I know it is hard 
very often for Americans to realize that the British Government 
with all its pomp and ceremony would allow things like this 
occur in an area within its jurisdiction--but I find example 
after example where the police force, the Royal Ulster 
Constabulary, in Northern Ireland gives out confidential 
information on the homes, the whereabouts, the jobs, the 
telephone numbers, whatever it is, of prominent Catholics in 
their communities, gives those to loyalist murderers so that 
murders can be carried out. This is outright collusion between 
the police forces and the outlawed paramilitary forces in 
Northern Ireland.
    This is a way of life. That is why this has to be changed. 
And that is why Congressman Neal's resolution is so important 
and why Congressman Smith's amendment to that resolution is 
also vital.
    So I strongly support the resolution; I strongly support 
Chairman Smith's amendment.
    Mr. Bereuter. Thank you.
    If there are no further requests for recognition, the Chair 
asks unanimous consent that Chairman Gilman's statement in 
support of the Smith amendment be made a part of the record at 
this point.
    [The prepared statement of Mr. Gilman appears in the 
appendix.]
    The question then is on the Smith amendment. Members who 
are in favor will say aye.
    Opposed will say no.
    The ayes appear to have it. The ayes do have it.
    Are there other Members seeking recognition or seeking to 
offer an amendment?
    If not, the gentleman from New Jersey, Mr. Smith, is 
recognized to offer a motion.
    Mr. Smith. I move that the Chairman be requested to seek 
consideration of the pending resolution, H. Res. 547, as 
amended, on the suspension calendar.
    Mr. Bereuter. The question is on the motion of the 
gentleman from New Jersey. All those in favor of the motion 
will say aye.
    All those opposed will say no.
    The ayes have got it. The motion is agreed to. Further 
proceedings on the measure are postponed.
    The Chair asks unanimous consent that we change the order 
of the agenda and take up a resolution which should be 
noncontroversial, until other Members that want to participate 
in other intervening resolutions have returned. Are there 
objections?


       H. CON. RES. 257--CONCERNING THE IRANIAN BAHA'I COMMUNITY


    Hearing no objections, we will now consider H. Con. Res. 
257 concerning the emancipation of the Iranian Baha'i 
Community.
    The Chair lays the resolution before the Committee.
    [The resolution appears in the appendix.]
    The clerk will report the title of the resolution.
    Ms. Bloomer. ``H. Con. Res. 257, a resolution concerning 
the emancipation of the Iranian Baha'i community.''
    Mr. Bereuter. Without objection, the clerk will read the 
preamble and text of the resolution in that order for 
amendment.
    Ms. Bloomer. ``Whereas in 1982, 1984, 1988, 1990, 1992, 
1994 and 1996, Congress, by concurrent resolution, declared 
that it holds----''
    Chairman Gilman [presiding]. Without objection, the 
resolution is considered as having been read and is open for 
amendment at any point.
    At the request of the Minority, without objection, the 
measure will be set aside. We will proceed to the next measure.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    This is, I think, an appropriate time as the Nobel 
Commission will soon be making its--oh, we are back to the 
Baha'i resolution.


H. CON. RES. 242--URGING THAT FORMER SENATOR GEORGE MITCHELL BE AWARDED 
                            THE NOBEL PRIZE


    Chairman Gilman. We will now proceed with the Mitchell 
resolution. We will now consider H. Con. Res. 242 urging that 
the Nobel Peace Prize be awarded to former Senator George 
Mitchell.
    The Chair lays the resolution before the Committee.
    [The resolution appears in the appendix.]
    The clerk will report the title of the resolution.
    Ms. Bloomer. ``H. Con. Res. 242, to urge the Nobel 
Commission to award the Year 2000 Nobel Prize for Peace to 
former----''
    Chairman Gilman. Without objection, the clerk will read the 
preamble and the text of resolution in that order for 
amendment. The clerk will read.
    Ms. Bloomer. ``Whereas Senator Mitchell has worked 
tirelessly over the past 4 years----''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open for amendment at any 
point.
    The Chair recognizes the sponsor of the resolution, the 
distinguished Ranking Member of the Committee, Mr. Gejdenson, 
to introduce the resolution to the Committee.
    Mr. Gejdenson. Thank you, Mr. Chairman. Thank you for 
supporting this resolution.
    It is clear as we approach the time that the Nobel 
Committee will make its decision, this is an appropriate time 
to move this resolution. George Mitchell has worked tirelessly 
over the past 4 years to bring peace to the region, to end 
strife and violence in an area where more than 3,200 have been 
killed, and thousands more have been injured. At times when 
others would have walked away, Senator Mitchell continued to 
return to make every effort possible in trying to revive 
negotiations when they appeared to be at a hopeless and stalled 
deadlock at one point.
    Finally, in September 1999, Senator Mitchell went back for 
one more try and has moved us to where we are today, where we 
can really see hope for the future in Northern Ireland.
    Those of us who, like yourself, Mr. Chairman, and I and 
others who worked with Senator Mitchell, know his basic, 
steady, decent approach, his endless efforts toward resolving 
the crisis in Northern Ireland. He is someone for whom all of 
us who have worked with him have a great respect.
    Support from the press across the country for this 
resolution has been significant. So I thank you for bringing 
this forward and urge that it pass rapidly to the floor to make 
sure that the Nobel Committee knows of the broad support for 
Senator Mitchell's efforts here in the Congress.
    Chairman Gilman. Thank you. Is there any other Member 
seeking recognition? Mr. Rohrabacher.
    Mr. Rohrabacher. I will be very brief because I know there 
are other Members who have been much more active on this issue.
    Let me just say that I think that Senator Mitchell deserves 
our highest bipartisan praise for what he has been doing, and 
you are going to hear me say something now that you rarely have 
heard me say. I think President Clinton deserves a pat on the 
back for this as well.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Rohrabacher. Certainly.
    Mr. Gejdenson. Just fearing that my age is starting to 
affect my hearing, could the gentleman please repeat that last 
statement? I am not sure that I heard it correctly.
    Mr. Rohrabacher. I will. I think that President Clinton 
does deserve praise for his efforts to bring peace in Northern 
Ireland, which has been a very vexing problem. And President 
Clinton has also been very active and deserves our commendation 
for the work that he has done in the Middle East, as well.
    But as the Nobel Prize Committee meets--and we could 
recognize that there has been a great convergence here--we have 
a situation where sides were so far apart 5 and 6 years ago. 
Through Senator Mitchell's tireless efforts, they brought them 
much closer together and there is a real chance for peace.
    I recently visited Ireland on the way back from a trip, a 
CODEL to the Soviet Union. We had a chance to speak to the 
Prime Minister of Ireland, and he is very optimistic, and that 
optimism wasn't always there. That optimism was caused by the 
hard work of, first, the commitment of this Administration, the 
Clinton Administration, and the hard work of Senator Mitchell.
    Let me just say that from the last debate, it is clear and 
should be made clear to everyone that when the British 
retreated from their empire in the middle of the last century--
and it was the last century, it was in the 1900's now when you 
think about it--that they left time bombs all over the world. 
They may well have dominated--the British Empire, Rule 
Britannia, may have created a certain kind of peace in the 
world for a number of decades during the last century, but Rule 
Britannia left behind time bombs throughout their former 
empire, as can now be seen in Northern Ireland. And it has 
taken a lot of time to try to diffuse the time bomb they left 
there; but it can also be seen in Africa, can also be seen in, 
for example, the faraway Fiji Islands.
    The type of problems that were left behind, it is incumbent 
upon us, as a democratic people who would like to be 
peacemakers in this world, to not only do our best, but to 
recognize those people like Senator Mitchell who are 
representing the very best of our country in trying to promote 
peace and maybe to clean up after the British, who left these 
problems behind for us.
    So, with that, I support the legislation and thank Mr. 
Gejdenson and others who have spent time promoting it.
    I yield back.
    Chairman Gilman. Thank you.
    Mr. King.
    Mr. King. Thank you, Mr. Chairman. I just want to commend 
Mr. Gejdenson and certainly join in the remarks of Dana 
Rohrabacher.
    This certainly is an historic moment. I am delighted I had 
the honor of being here to witness it. I would also say that I 
think Dana did put this in perspective when he spoke about the 
time bombs left behind by the British. While Britannia may rule 
the waves, it really can't waive the rules.
    The fact is, they waive too many international rules when 
dealing within their countries, such as Ireland and others. And 
Senator Mitchell deserves tremendous credit for the time and 
effort that he put in. The seemingly limitless patience that he 
had and the brilliancy he was able to show in bringing the 
parties together, first for the Good Friday Agreement, and then 
last fall, which really did pave the way for the IRA statement 
of last June that has resulted in the Northern Ireland Assembly 
being set up.
    So this is an issue which, depending on where you want to 
draw the time line or begin the time line, has vexed diplomats 
for either 800 years or 300 years or 80 years or 30 years. The 
fact is, it was Senator Mitchell who was most instrumental in 
resolving the centuries-old dispute, and certainly the Nobel 
Peace Prize will be a fitting tribute for the tremendous work 
that he has done. I support the resolution.
    Chairman Gilman. Thank you, Mr. King.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I would say to Mr. Gejdenson, I was not made aware of the 
fact that you were ready to take up in your resolution.
    I certainly will support the resolution before us, which 
gives special recommendation with respect to the Nobel Peace 
Prize for Senator Mitchell. I also want to recognize that 
Senators Lugar and Nunn have been nominated by international 
sources for the Nobel Peace Prize.
    This congressional initiative was and is of increasingly 
fundamental importance to the well-being of the United States 
and the world. And the fact that we are having this specific 
resolution supporting the nomination and award to Senator 
Mitchell should not detract from our very strong bipartisan 
support for our former colleague from Georgia and our current 
colleague, the Senior Senator from Indiana.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Mr. Payne.
    Mr. Payne. I join in strong support of this resolution. As 
I indicated, I have been very involved in this situation in the 
north of Ireland and know many of the players from all sides, 
and I have to really commend Senator Mitchell for his patience.
    He makes Job look like an amateur, his patience has been so 
outstanding. For hours and hours and days and days and weeks 
and weeks, he would sit and listen to issues and incidents that 
occurred 1,000 years ago--not 1,000 but 500 years ago and 400 
years ago and 300 years ago. People who said they would never 
sit at the table together, never would shake a person's hand, 
sat at the table because Senator Mitchell just would not take 
``no.'' He would say whenever there was an obstacle, he would 
just confront it and take it on.
    It takes a certain kind of personality and commitment, 
tenacity, patience, ability, and Senator Mitchell certainly 
possesses all of those qualities. He could have been doing 
other things with his time. But he dedicated his life and those 
years to negotiations.
    So I think there is no person more fitting at this time to 
receive the award than our former colleague, Senator Mitchell.
    Chairman Gilman. Thank you, Mr. Payne.
    I am pleased to be an original cosponsor of this 
resolution, H. Con. Res. 242, that was introduced by Mr. 
Gejdenson. It is a resolution that now has more than 50 
cosponsors in broad bipartisan support.
    In the resolution, Congress justifiably urges the Nobel 
Commission to award the Nobel Peace Prize for the year 2000 to 
former Senator George Mitchell for his extraordinary and 
impressive efforts in securing the peace in Northern Ireland.
    Few observers of the lasting peace and justice in the north 
of Ireland could not help but agree with this resolution. 
Senator Mitchell surely deserves the Nobel Peace Prize for his 
successful efforts in bringing together a comprehensive and 
fair agreement to the age-old struggle between the two 
traditions in that troubled region.
    More than 3,000 people have died in the last 30 years in 
the ``troubles'' in Northern Ireland. The hatreds, 
misunderstandings, and mistrust run very deep. There was an 
enormous trust deficit that had to be breached, and Senator 
Mitchell did so in brokering the peace.
    Senator Mitchell, with his ability to listen, his 
fundamental sense of fairness, and his integrity and 
impartiality fully breached those age-old and wide gaps between 
the two traditions in Northern Ireland. Eventually, after years 
of hard work and dedication, he brokered a complex power-
sharing agreement between the parties, a power-sharing 
agreement that later won wide support from the people of 
Ireland and referendum both in the north and in the south.
    Senator Mitchell's efforts in securing the Good Friday 
Agreement in April 1998, and his subsequent efforts at ensuring 
implementation of the new power-sharing institutions were 
expressions of the master of the possible. All of this effort 
and resulting progress is a strong testament to the 
extraordinary diplomatic efforts and skills of Senator Mitchell 
in bringing all sides together.
    Senator Mitchell said recently that the peace process in 
the north of Ireland is irreversible. As a long-time observer 
of that situation, I agree. The people want peace and they want 
reconciliation. The tide of history is on the side of the peace 
process that George Mitchell started. Much more, of course, 
needs to be done on the ground to bring about a permanent, 
peaceful change and the reconciliation in Northern Ireland, 
especially on policing reform relating to the Royal Ulster 
Constabulary.
    The path has now been cleared for real and much-needed 
change. The Irish people and both governments must now insist 
on adherence to the Good Friday Accord. Sadly, some insist on 
not living up to the Accord. However, that should not be a 
reflection on George Mitchell.
    Today, the British Government is playing politics with the 
policing issue in not implementing the full Patten Commission 
police reforms that were intended under the terms of the 
negotiated Good Friday Accord to depoliticize the police. What 
we need now is a new beginning on policing and a new police 
service capable of attracting and sustaining support from the 
community as a whole, as envisioned by the Good Friday Accord.
    What Senator Mitchell achieved ought to be faithfully 
adhered to by all parties in both governments in the region. 
Senator Mitchell deserves the Nobel Peace Prize for these 
extraordinary efforts. This resolution before us puts Congress 
on record in favor of that proposition, and I urge its 
adoption.
    Mr. Gejdenson, the author of the resolution, is further 
recognized.
    Mr. Gejdenson. Thank you, Mr. Chairman. I just appreciate 
your support and urge passage of the bill.
    Chairman Gilman. Are there any other Members seeking 
recognition or seeking to offer any amendments?
    If not, the gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. I move the Chairman request to seek 
consideration of the pending resolution on the suspension 
calendar.
    Chairman Gilman. Thank you.
    The question is on the motion of the gentleman from 
Nebraska, and all those in favor of the motion, signify by 
saying aye.
    All those opposed say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are now postponed.


       H.J. RES. 100--25TH ANNIVERSARY OF THE HELSINKI FINAL ACT


    We will now move to consider H.J. Res. 100, asking the 
President to recognize the 25th anniversary of the Helsinki 
Final Act.
    The Chair lays the resolution before the Committee.
    [The resolution appears in the appendix.]
    The clerk will now report the title of the joint 
resolution.
    Ms. Bloomer. ``H.J. Res. 100, a resolution calling upon the 
President to issue a proclamation recognizing the 25th 
anniversary of the Helsinki Final Act.''
    Chairman Gilman. This resolution is in the original 
jurisdiction of the Full Committee.
    Without objection, the clerk will read the preamble and 
text in that order for amendment.
    Ms. Bloomer. ``Whereas August 1, 2000, is the 25th 
Anniversary of the Final Act of the Conference on Security and 
Cooperation in Europe [CSCE], renamed the Organization----''
    Chairman Gilman. The resolution is considered as having 
been read. We will now consider the resolution.
    It was introduced by the distinguished Chairman of the 
Subcommittee on International Operations and Human Rights, the 
gentleman from New Jersey, Mr. Smith, who is now recognized to 
introduce the resolution to the Committee.
    Mr. Smith. Thank you, Mr. Chairman.
    H.J. Res. 100 commemorates the 25th anniversary of the 
Helsinki Final Act and international accords signed by 35 
countries, including the United States and the former Soviet 
Union.
    No doubt the Final Act represents a milestone in European 
history. This resolution has 40 cosponsors, including all of my 
fellow Helsinki commissioners, and we introduced it back on 
June 8; a companion resolution, H.J. Res. 48, passed the Senate 
on July 27.
    As you know, we had hoped to schedule consideration of this 
prior to the August recess. With its language on human rights, 
the Helsinki Final Act granted human rights the status of a 
fundamental principle in regulating international relations. 
The Final Act's emphasis on respect for human rights in the 
fundamental freedoms is rooted in the recognition that the 
declaration of such rights affirms the inherent dignity of men 
and women and are not privileges bestowed at the whim or 
caprice of the state.
    The Helsinki Final Act and the process it originated was 
instrumental in consigning the communist Soviet empire, 
responsible for untold violations of human rights, to the dust 
bin of history. The standards of Helsinki, which served as a 
valuable lever in pressing human rights issues, also provided 
encouragement and sustenance to courageous individuals who 
dared to challenge repressive communist regimes.
    Many of these brave men and women, including members of the 
Helsinki monitoring groups in Russia, Ukraine, Lithuania, 
Georgia, Armenia, and similar groups in Poland and 
Czechoslovakia, Soviet Jewish immigration activists, members of 
repressed Christian denominations and origins, paid a high 
price in the loss of personal freedom, and in some instances, 
their lives, for their act of support of principles enshrined 
in the Helsinki Final Act. Without these Helsinki human rights 
activists, indeed without the Helsinki process and its emphasis 
on human rights, it is likely that the momentous events of 1989 
and 1991 would not have occurred.
    With the dissolution of the Soviet Union and Yugoslavia, 
Mr. Chairman, the OSCE region has changed dramatically. In many 
OSCE states, we have witnessed transformations and the 
consolidation of the core OSCE values of democracy, human 
rights, and the rule of law. In others, there has been little, 
if any, progress; and in some, armed conflicts have resulted in 
hundreds of thousands having been killed in grotesque violation 
of human rights.
    Today, we have the equivalent. The Helsinki monitors human 
rights defenders who call upon their government to uphold human 
rights commitments in places such as Uzbekistan, Turkmenistan, 
Belarus and even in Northern Ireland. The OSCE, which now 
includes 54 participating states, has changed to reflect the 
changed international environment, undertaking a variety of 
initiatives designed to prevent, manage, and resolve conflict 
and emphasizing the rule of law in respect for the rule of law 
and the fight against organized crime and corruption which 
constitute the threat against economic reform and prosperity.
    The Helsinki process is still dynamic and active, and the 
importance of a vigorous review in which countries are called 
to account for violations of their freely undertaken Helsinki 
commitments has not diminished.
    In fact, next month in Warsaw there will be another in a 
series of meetings of the OSCE to review implementation of the 
OSCE human rights commitments made by countries. This 
resolution again calls upon the OSCE states to abide by their 
commitments under the Helsinki Final Act, recognizing that 
respect for human rights and fundamental freedoms, democratic 
principles, economic liberty and related commitments continue 
to be vital elements in promoting a new era of democracy, 
peace, and the rule of law.
    In the 25 years since this historic process was initiated 
in Helsinki, there have been many, many successes. The task is 
far from complete. Let's continue on, and this resolution puts 
us behind that effort.
    Chairman Gilman. Thank you.
    Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman. Mr. Gejdenson had 
planned to yield time to me and I appreciate you very much for 
doing so.
    Of course I offer deep gratitude to Mr. Smith of New Jersey 
for introducing this timely and very important resolution. And 
thank you, Mr. Chairman, for bringing this to the Full 
Committee today.
    My colleagues, it gives me special pride to speak about the 
25th anniversary of the Helsinki Final Act. As has already been 
detailed by Mr. Smith, the Helsinki Final Act led to the 
formation of the Conference on Security and Cooperation in 
Europe, which we now call the Organization for Security and 
Cooperation in Europe [OSCE]. As many of our colleagues know, I 
have been an active participant in the last six congressional 
delegations to the annual meetings of the OSCE's Parliamentary 
Assembly. In fact, I sit before you today not only as a Member 
of this distinguished Committee, but also as a Chairperson of 
the OSCE Parliamentary Assembly's Committee on Political 
Affairs and Security.
    So as I said, it gives me special pride to speak on 
Chairman Smith's bill and to briefly explain why I feel it is 
so critical that Congress recognize this milestone.
    When the Helsinki Final Act was signed 25 years ago, the 
world was a much different place. The Cold War was still 
actively being waged, and there were literally dozens of 
nations still hidden to the world by the Iron Curtain. The 
Helsinki Final Act was a hope, and the resulting OSCE was the 
fulfillment of that hope.
    We have seen many changes in recent years, particularly 
within the OSCE region. We have witnessed the rebirth of 
democracy in Eastern Europe and the evolution of some of these 
states into stable economic and democratic countries. However, 
our work is not complete. As long as there is a continuum of 
human rights violations within our circles, we must not--
indeed, we will not--stand still.
    Mr. Chairman, as we begin the new century and the new 
millennium, we enter a time of change and adaptation. When I 
reflect upon the technological and political advances we made 
in the last 25 years, from the development of the Internet to 
the almost complete extermination of totalitarian regimes, with 
some significant and conspicuous exceptions, I cannot even 
imagine what the world will be like 25 years from now. I do, 
however, have no doubt that the OSCE will continue to play a 
vital role in helping the members of the organization, as well 
as the other countries of the world, not just to adjust to the 
global shifts of governmental structures but to prosper from 
them as well.
    While we advance in the technological and political world, 
we have retracted in other areas. The human rights violations 
that are presently taking place in some OSCE countries are not 
traits to be found in the modern age, but rather in the Middle 
Ages. But it is because of the success of the Helsinki Final 
Act and the OSCE that these are occurrences that are becoming 
more and more rare.
    While Mr. Smith has been nothing less than stellar in his 
current chairmanship of the Helsinki Commission during the 
106th Congress, I want to salute a former chairman of the 
Commission who also was critical in establishing the CSCE, and 
that is Steny Hoyer, the Commission's current Ranking Member.
    Additionally, I would appreciate an opportunity, Mr. 
Chairman, to point with some parochial interest that it is my 
good friend and yours and many Members of this Committee, our 
late former colleague from Florida, Dante Fascell, who was 
instrumental in the establishment of the CSCE. Dante's spirit 
continues in Congress today for any Member of this body who 
realizes that the world does not end at the boundaries of the 
United States.
    Mr. Chairman, I am pleased to be a cosponsor of H.J. Res. 
100, and I am pleased to be an active member of the OSCE. I 
commend Chairman Smith for bringing this resolution before us 
and thank you for bringing it before the Full Committee today.
    Mr. Chairman, the world is becoming a better place every 
day. The OSCE plays a critical role in this reality. It is 
therefore altogether fitting and appropriate that we recognize 
the 25th anniversary of the Helsinki Final Act. I urge the Full 
Committee to support Mr. Smith's resolution and bring it to the 
House floor.
    Chairman Gilman. Thank you, Mr. Hastings. Does any other 
Member seek recognition?
    If not, I want to express my strong support for the 
resolution offered by the gentleman from New Jersey, Mr. Smith, 
honoring the Helsinki Final Act in light of the recent 25th 
anniversary, its signing and calling on the President to 
reassert the United States' commitment to its implementation.
    The Organization of Security and Cooperation in Europe, the 
OSCE, created by the Helsinki Act of 1975, is actually not a 
security alliance. The OSCE is also not based on any ratified 
treaty with provisions that are binding on its signatories. And 
yet, the OSCE and the agreement that established the Helsinki 
Final Act have proven extremely influential in modern European 
affairs, both during the Cold War and in today's post-Cold War 
world.
    As the resolution notes, the Helsinki Act inspired many of 
those seeking freedom from Communism to create nongovernmental 
organizations to monitor their governments' compliance with the 
human rights commitments made by communist regimes in Helsinki 
in 1975. Those groups--their efforts, in turn, helped speed the 
end of those communist regimes and the end of the Cold War 
itself.
    Today's OSCE, in continuing to hold up to the Helsinki Act 
signatory, states the standards that they should aspire to 
meet--particularly with regard to respect for human and 
political rights--continues to play a very beneficial role. 
Moreover, since the OSCE includes in the ranks of its 
participatory states almost all of the states of Europe, those 
states have agreed to grant the OSCE a greater role in conflict 
prevention and conflict resolution--again, in spite of the fact 
that it is not a traditional treaty-based security 
organization.
    I am certain that as we continue to work toward a Europe 
and the North Atlantic community of states that it is truly 
democratic ``from Vancouver to Vladivostok,'' the OSCE will 
continue to play a vital role.
    I am pleased to support this resolution, and I commend Mr. 
Smith for his strong support of the OSCE, along with Mr. 
Hastings.
    Are there any other Members who seek recognition?
    If not, the gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. I move the Chairman be requested to seek 
consideration of the pending resolution on the suspension 
calendar.
    Chairman Gilman. Thank you, Mr. Bereuter.
    The question is on the motion of the gentleman from 
Nebraska. All those in favor of the motion, signify by saying 
aye.
    As many as are opposed, say no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chairman is authorized to make 
motions under Rule 20 relating to a conference on this bill or 
counterpart from the Senate. Further proceedings on this 
measure are now postponed.


         H.R. 1064--SERBIA AND MONTENEGRO DEMOCRACY ACT OF 1999


    We now move to consider H.R. 1064, the Serbia and 
Montenegro Democracy Act of 1999. This bill was introduced by 
the distinguished Chairman of the Subcommittee on International 
Operations and Human Rights, the gentleman from New Jersey, Mr. 
Smith.
    The Chair lays the bill before the Committee.
    [The bill appears in the appendix.]
    The clerk will report the title of this bill.
    Ms. Bloomer. ``H.R. 1064, a bill to authorize a coordinated 
program to promote the development of democracy in Serbia and 
Montenegro.''
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with.
    The clerk will read the bill for amendment.
    Ms. Bloomer. ``Be it enacted by the Senate and House of 
Representatives----''
    Chairman Gilman. Without objection, the bill will be 
considered as having been read and is open for amendment at any 
point.
    I now recognize the sponsor of the bill, the distinguished 
gentleman from New Jersey, Mr. Smith, who I understand has an 
amendment which he may want to offer.
    Mr. Smith. I have an amendment in the nature of a 
substitute to H.R. 1064.
    [The amendment appears in the appendix.]
    Chairman Gilman. The gentleman has offered an amendment. 
The clerk will report the amendment.
    The clerk will distribute the amendment.
    Ms. Bloomer. ``An amendment in the nature of a substitute 
offered by Mr. Smith. Strike all after the enacting clause and 
insert the following----''
    Chairman Gilman. The amendment is considered as having been 
read.
    Mr. Smith is recognized on the amendment.
    Mr. Smith. Thank you, Mr. Chairman.
    I offer an amendment in the nature of a substitute to H.R. 
1064, the Serbia and Montenegro Democracy Act. The amendment 
which I circulated in the Dear Colleague to Members 
incorporates language supported in the Senate and by the 
Department of State.
    It is important for this Committee and this Congress to 
support those seeking democratic change in Serbia, as well as 
those undertaking democratic change in Montenegro. This 
amendment does just that. It updates the original bill which 
was introduced in February 1999, and is based on language which 
passed the Senate by unanimous consent last year.
    In preparing this amendment, my staff worked closely with 
the Senate staff, our own majority-minority staff, and the 
State Department, to find a text that we could all support; and 
funds authorized to support democracy in Serbia and Montenegro 
correspond to those of the President's original budget request 
for fiscal year 2001. I also note that the language of this 
amendment parallels some of that originally introduced in H.R. 
1373 by our colleague from South Carolina, Mr. Sanford.
    The amendment also calls for maintaining sanctions on 
Serbia until such time that democratic change is under way.
    Reflective of another resolution, H. Con. Res. 118, which I 
introduced last year, the amendment supports the efforts of the 
International Crimes Tribunal for the former Yugoslavia to 
bring those responsible for war crimes and crimes against 
humanity, including Slobodan Milosevic, to justice.
    Mr. Chairman, I ask that Members consider this amendment in 
the nature of a substitute favorably, and I yield back the 
balance of my time.
    Chairman Gilman. Thank you.
    Is there any Member seeking recognition?
    Mr. Payne.
    Mr. Payne. Mr. Chairman, I support the legislation of the 
gentleman from New Jersey. But before I give my final vote, I 
wonder if the Administration has any position on this 
legislation. Would anyone from the Administration like to 
address----
    Chairman Gilman. Would the gentlelady please indicate her 
name and title.
    Ms. Cooks. Thank you, Mr. Chairman. My name is Shirley 
Cooks; I am from the Bureau of Legislative Affairs at the State 
Department.
    I would like, with your permission, Mr. Chairman, to ask 
Ambassador Napper to comment on this legislation.
    Chairman Gilman. Ambassador Napper, would you please take 
the witness chair and, again, identify full name and title.
    Mr. Napper.  Thank you, Mr. Chairman. My name is Larry 
Napper. I am the coordinator for the East European Assistance 
Program in the State Department.
    Thank you very much. We appreciate your work on this 
legislation, bringing it before the Committee, the support of 
Mr. Gejdenson, of Members from both sides of the aisle, and 
particularly Chairman Smith's initiatives in bringing this 
important legislation forward.
    The State Department fully supports the effort here to send 
a strong signal of support for democratic forces in Serbia. We 
especially appreciate the efforts that have been undertaken by 
Mr. Smith and members of his staff to consult with us about the 
language in the bill. We are supportive of it, and strongly so.
    We do hope, in the period between today and the time when 
the bill finally comes to the floor, that there will be an 
opportunity to continue dialogue on certain technical wording 
in the bill, which we think could clarify some of the 
provisions. We don't seek that today, but we do hope there will 
be an openness to working with the staff here and the staff in 
the Senate on a couple of what we regard as purely technical 
fixes, but they can be of some importance.
    Chairman Gilman. We will be pleased to work along with you 
on that.
    Mr. Napper.  If I might mention just one, Mr. Chairman, 
very quickly, and I will finish. That is, in Section 408 where 
there is a waiver for the President in the event of a 
democratic change, a positive change, a new democratic Serbia, 
to lift some of the existing sanctions and to provide 
assistance. We think it important that what we take to be the 
intent of both this Committee and in the Senate, to make it 
possible not only to provide assistance but also to provide a 
positive vote in the international financial institutions, be 
clearly enough delineated so that it will be clear in that 
event that we can take those actions.
    So again, we think that kind of thing can be done in a very 
technical way and we appreciate your expression of willingness 
to work with us. Thank you.
    Chairman Gilman. Thank you, Ambassador.
    Is there any other Member seeking recognition?
    Mr. Sanford.
    Mr. Sanford. I would yield to the gentleman from 
California.
    Mr. Campbell. I thank the gentleman for yielding. Just a 
very quick comment on page 5, line 21 through 24. This is a 
sense of Congress so I will not offer an amendment, but it 
seems to me that it may at some point be appropriate, for the 
sake of all of the objectives of the legislation, to meet with 
President Milosevic, not that I have any commending or positive 
feelings toward him in the slightest. But that sometimes it is 
necessary to meet with the person in charge in order to make 
progress.
    As I say, it is only a sense of Congress, but I think it is 
worth noting that it may be going a little too far to say that 
we not meet with an individual. The prior clause seems to be 
adequate, which says to minimize to the extent practicable any 
direct contacts with the officials of the Yugoslav or Serbian 
Governments.
    I don't make a motion to that extent because it is only a 
sense of Congress.
    I thank the gentleman for yielding.
    Chairman Gilman. Mr. Sanford.
    Mr. Sanford. I would just want to speak on behalf of Mr. 
Smith's amendment in that basically I had offered a bill that 
had many of the same provisions back in April of last year with 
the belief that we need to come up with some counter-strategy, 
some alternative strategy, in dealing with Milosevic.
    I think what this bill really begs is the larger point of 
what are we doing in that part of the world. Because if you 
look at the operations, if you look at the amount of money we 
spent in both Kosovo and in the skies over Serbia, with the 
region, if you look at the total of basically $15.7 billion 
that was spent of the United States taxpayer's money over the 
last couple of years in the Balkans, I guess the question has 
to be, where does this end?
    Because what this bill attempts to do is look at Montenegro 
and what is going to happen there over the next couple of 
years. If we have not begun to help out with some kind of 
democracy building as some alternative to our current strategy, 
we are going to be in there, in yet a third spot, with troops 
in armament; and I think that will be a horrendous mistake.
    I think the overall issue needs to be examined regarding 
our strategy in the Balkans and what is our exit strategy 
because of, again, the overall numbers. I look at the different 
operations--I have enumerated them here, and I will submit 
these for the record--but military operations in Kosovo, $3.3 
billion; refugee operations--Noble Anvil, Joint Guardian, 
Balkan Call, Eagle Eye, Sustained Hope, Task Force Hawk, $5 
billion in Kosovo alone--and you add back Bosnia, you add what 
we are looking to in the future in an area like Montenegro, and 
you see basically American troops bowled down in that part of 
the world for years upon years upon years.
    So I would applaud Mr. Smith's efforts on this amendment 
and I would beg that the Administration come up with some kind 
of strategy other than sending troops and bombs through the sky 
in dealing with the Balkans, because that seems to be our 
current strategy, and I think that this is a pleasant 
alternative.
    With that, I would yield back.
    Chairman Gilman. Thank you, Mr. Sanford.
    Mr. Smith.
    Mr. Smith. I will be very brief. I thank Mr. Sanford for 
the text and the leadership he provided by his legislation.
    Let me just note very strongly that this is bipartisan 
legislation. Mr. Gilman obviously is a cosponsor with Mr. 
Hoyer, Mr. Engle, Mrs. Slaughter, Mr. Moran, to name just a few 
of those who are cosponsors in addition to a number of 
Republicans. So we are trying to send a clear message that 
democracy building, strengthening the NGO's, and building up 
the free independent media are vitally important.
    I just would note, in response to Mr. Sanford again, we had 
a hearing with the Helsinki Commission in February devoted to 
the deteriorating situation in Montenegro and the fact that 
their efforts at reform were gravely threatened, and we had an 
update with at least one witness in July, an additional 
hearing. So they are at risk.
    This money hopefully will go toward strengthening and 
spreading out the root system for those who believe in 
democracy and human rights in Montenegro.
    Chairman Gilman. Thank you. Is there any other Member 
seeking recognition?
    Mr. Payne.
    Mr. Payne. Mr. Chairman, I too support this legislation. I 
do think though that it does talk about assistance to promote 
democracy in a civil society. It talks about authority for 
radio and television broadcasting, and it talks about ways that 
we would try to strengthen civil society, to try to strengthen 
the judiciary and the Administration of justice and the 
transparency of political parties.
    So I agree that we don't need to send bombs and tanks all 
around, but I see in this legislation, as a matter of fact, 
those things aren't mentioned. We are talking about trying to 
create an atmosphere where we can have dialogue and democracy 
moving forward.
    So I think that Mr. Smith has a good sense of the 
situation, and I support the gentleman from New Jersey.
    Chairman Gilman. Thank you, Mr. Payne.
    Are there any other Members seeking recognition?
    If not, I would like to comment on the bill H.R. 1064 
introduced by the gentleman from New Jersey, Mr. Smith, as well 
as the amendment in the nature of a substitute that I 
understand he has offered to the original text. My colleague 
from New Jersey has rightfully earned his reputation as a 
strong supporter of democracy and human rights around the 
world, and both his bill as introduced and his amendment to 
that bill demonstrate once again that this is the case.
    The people of Serbia need to know that our Nation does not 
wish to have antagonistic relations with their country. They 
need to know, instead, our nation is simply opposed to the 
kinds of policies that their country has pursued under the 
leadership of Mr. Milosevic.
    They also need to know that our nation supports the cause 
of true democracy in Serbia, just as it does in the rest of 
Europe; that Serbia is a European country, and deserves a place 
at the European table once it has started down the road of real 
democracy, real reform, and real respect for human rights.
    Regrettably, Slobodan Milosevic has proven himself a master 
of manipulation of Serbian patriotism and of Serbian 
nationalist fears. Milosevic has employed the ethnic distrust 
and unrest that surrounded the breakup of the former communist 
Yugoslav federation to portray himself as a protector of 
Serbian rights.
    Instead, he has simply led Serbia down the road to ruin. 
While Serbia's economy today lies in shambles and its people 
face a future that promises nothing better, Mr. Milosevic 
lingers on, surrounded by a web of corruption, mysterious 
murders, political manipulation, and state repression.
    And, after yet another series of manipulative steps, 
Milosevic has now set the groundwork for his election to yet 
another term as Yugoslav president later on this month, an the 
election that most likely will be rigged to ensure that very 
outcome.
    This bill makes it clear that our nation has not given up 
on, and will not give up on, the freedom of the nation of 
Serbia and the effort to create a true democracy there. This 
bill's passage should make that clear to the Serbian people.
    Accordingly, I urge our colleagues to join in supporting 
this measure.
    Are there any other Members seeking recognition? Are there 
any amendments to the amendment? If there are no further 
amendments, without objection the previous question is ordered 
on the amendment in the nature of a substitute. Without 
objection, the amendment in the nature of a substitute is 
agreed to.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending bill, as 
amended, on the suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska, Mr. Bereuter. Those in favor of the 
motion signify by saying aye. Those opposed say no. The ayes 
have it; the motion is agreed to.
    Without objection the Chair or his designee is authorized 
to make motions under Rule 20 with respect to a conference on 
the bill or counterpart from the Senate.
    Further proceedings on this measure are postponed.


             H. RES. 451--RELATING TO THE FUTURE OF KOSOVO


    We will now move on to consider H. Res. 451 relating to the 
future of Kosovo.
    The Chair lays the resolution before the Committee. The 
clerk will report the title of the resolution.
    [The resolution appears in the appendix.]
    Ms. Bloomer. ``H. Res. 451, a resolution calling for 
lasting peace, justice, and stability in Kosovo.''
    Chairman Gilman. Without objection, the clerk will read the 
preamble and the text of the resolution in that order for 
amendment.
    Ms. Bloomer. ``Whereas on June 10, 1999, the North Atlantic 
Treaty Organization----''
    Chairman Gilman. I have an amendment in the nature of a 
substitute at the desk. The clerk will report the amendment and 
distribute the amendment.
    [The amendment appears in the appendix.]
    Ms. Bloomer. ``Amendment offered by Mr. Gilman. Strike the 
preamble and insert the following: Whereas on June 10, 1999 the 
North----''
    Chairman Gilman. Without objection, the amendment in the 
nature of a substitute is considered as having been read. It is 
now open at any point for amendment. I will recognize myself 
briefly and introduce the amendment to the Committee.
    When I introduced this resolution last April, there were 
numerous problems in evidence concerning the U.N. mission in 
Kosovo. Since that time some of those difficulties have been 
mitigated. A number, however, have not; and, accordingly, I 
have introduced an amendment in the nature of a substitute at 
this time for the Committee's consideration. I would like to 
thank our Ranking Member, the gentleman from Connecticut, Mr. 
Gejdenson, for his assistance and suggestions that make this 
amendment a bipartisan effort.
    Our principal concern is that the international community, 
rather than fostering a self-reliant and prosperous Kosovar-run 
Kosova, is creating a new international dependency, hooked on 
assistance funds and the presence of numerous international aid 
workers. What seems to have been overlooked in the current 
approach is the fact that prior to the move to strip away 
Kosova's political autonomy in 1989, and even during the decade 
of oppression the Kosovars suffered under Milosevic, the 
Kosovar people demonstrated a remarkable amount of initiative, 
hardihood, and economic skill. These characteristics should be 
part of our strategy in restoring Kosova's economy, and not 
largely ignored.
    Another problem is the plight of thousands of Kosovars who 
are being illegally detained in Serbia. Some of these 
individuals were taken in the final hours of Serbia's sway over 
Kosova last June as virtual hostages. They include some of the 
leading intellectual lights of Kosovar society--doctors, 
lawyers, journalists, and teachers. The fact that the 
international community has remained nearly mute in the face of 
their continued detention is disappointing, and the refusal of 
the U.N. Security Council to demand their immediate release is 
frankly outrageous. Until the Kosovar detainees have been 
released and accounted for, no real peace will come to Kosova.
    The important industrial town of Mitrovice remains a 
divided city where international peacekeepers have been unable 
to return hundreds of ethnic Albanian residents to their homes. 
Failure to resolve this issue leaves a shadow of possible 
partition still hanging over Kosova.
    Another problem in the United Nations' approach to its 
Kosova mission is the issue of who should be able to control 
and operate important economic assets such as the Trepca mines. 
Although there have been recent steps to explore reopening of 
this most important economic asset, for many months the United 
Nations did not take action because of its fears that Serb 
ownership was an obstacle.
    Elections have been scheduled in 30 municipalities 
throughout Kosova for October 28. This resolution calls upon 
all citizens of Kosova to avail themselves of the democratic 
process and to peacefully express their political preferences. 
Let us hope that the adoption of this resolution and those 
upcoming elections will provide the beginning of the journey to 
a lasting and just peace for Kosova. I urge our Members to 
support this amendment.
    Are there any Members seeking recognition?
    Mr. Gejdenson.
    Mr. Gejdenson. I want to thank you for working out a 
resolution that we can all broadly support. I think it is 
important for us to remember that with all the problems we face 
today in Kosova, it is clear that the United States led an 
effort to prevent what would have been an outrageous atrocity 
and holocaust. It is very easy to find that where we are today 
is difficult and we face many challenges.
    Today on the floor we have passed a resolution concerning 
the Holocaust memorial in this country. I think Americans need 
to understand that what we did is the right thing. With all the 
problems that are associated with preventing the slaughter of 
thousands of Kosovar Albanians, the alternative would have been 
the United States and the world standing by watching innocent 
civilians slaughtered yet once again. We talked--I talked to 
Mr. Smith earlier today about finding a way to have forces in 
the United Nations that would be more reactive when there are 
these kinds of human rights crises in the world.
    We have sat by all too often in Africa and Asia; we have 
seen U.N. workers and one American killed recently in West 
Timor.
    What we did in Kosova is why the world looks to America for 
leadership. We did it without any self-interest. We did it for 
the right reasons. We prevented the death of thousands of women 
and children, and for that we should be very proud. I thank the 
Chairman for working with us to come up with a resolution we 
can all support.
    Chairman Gilman. Thank you.
    Mr. Bereuter.
    Mr. Bereuter. I thank you very much. I want to commend you 
for your initiative. The substitute before us, I think, 
certainly does take into account, where appropriate, 
information that has been conveyed to us by the European 
community. I am very concerned about what is happening in 
Kosovo as we all should be. We should not have any impression 
that things are going well. Members of Congress and people 
across the country should understand that things are not 
proceeding well. The level of violence in Kosovo is continuing 
to be high. We have murders of the Serbian ethnics going on 
there. We are not able to stop it. Across the line in Serbia we 
have murders of Albanian ethnics by Serbian interests and 
individuals.
    Mr. Gejdenson puts a very positive construction on what the 
Administration's role in the war against Yugoslavia resulted in 
and how it started. I do not agree with that kind of 
construction whatsoever. I think we need to speak out when we 
see an operation so badly handled. The peace accord put before 
the Yugoslavians and the KLA and other Albanian Kosovars was 
unacceptable to both sides. We pushed ahead with a war against 
Yugoslavia that was at least premature. The military operations 
with their gradual upgrading of bombing were inappropriate, and 
this country pushed that effort through NATO.
    We in this Administration are responsible for the very 
ineffective way that that war was waged. We should not have 
been engaged in bombing Yugoslavia at that stage. We did not 
exhaust even in the short term the kind of alternatives that 
were available. The peace proposal at Rambouillet was of course 
unacceptable to the Albanian Kosovars. They did not want some 
degree of autonomy from Yugoslavia; they wanted independence. 
We put before the Yugoslavians something that totally was 
unacceptable and, naturally so, to them.
    This was a war that should not have started at this point; 
and to put the proper construction on it, we need to be 
truthful about what happened there. But in any case, the 
resolution presented by the Chairman is entirely appropriate; 
and it urges a much larger, more effective European role as 
well as activities driven by organizations; and I support the 
resolution.
    Chairman Gilman. Thank you. Do any other Members seek 
recognition?
    Mr. Smith.
    Mr. Smith. I think it is critical that we strongly condemn 
all the violence that is occurring in Kosova today, also 
regardless of the ethnicity of the victim or the culprit. This 
resolution puts us four square--and I think it is very 
important that in item No. 9 you point out that all citizens of 
Kosova should adhere to the principles enunciated where all 
parties agree to a rigorous campaign against violence. Just 
because the bombs have stopped--and I too disagree with the 
bombing--but now making peace is turning out to be much more 
problematic and vexing as well. Retaliatory hits again Serbs 
are so less egregious than hits on Kosovar Albanians. I think 
we need to send that clear unambiguous message to all involved. 
We want peace. We want people to be treated with respect and 
dignity. This resolution, again, keeps us focused on that very 
important goal.
    Chairman Gilman. Thank you.
    Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman.
    I support the resolution although it seems that we all have 
a different take on what happened in Kosova. I think as we sit 
here and say we moved prematurely only hundreds of Albanians 
were being killed today and we should not have moved, it was 
premature. Maybe we should have waited until thousands a day 
were killed. That is what we did in Rwanda, where we saw close 
to a million people killed because we sat around and we 
twiddled our thumbs. We wouldn't use the word genocide. We 
allowed that country to have 700,000, 800,000 people killed 
because it wasn't enough and we sat around.
    And so in Kosova, where the situation was not nearly as 
grave but it was very serious, action had to be taken. As we 
know, our troops will no longer be put on the ground. There is 
no more use of ground troops around the world because we don't 
want to put our troops in harm's way. Although we are the 
world's mightiest power, we have a no-casualty philosophy, I 
suppose. That is good, but if you are going to be a world 
power, you are going to be a paper tiger if everyone knows you 
will never put your troops in harm's way unless people are 
coming up on your shores.
    Therefore, the only other alternative is to let the people 
continue to be slaughtered or to use the next best thing, where 
you lose no people, by using the air strike. I am not a 
military man. I don't know how to evaluate effectiveness. I 
have never flown a plane or dropped a bomb or shot a gun. But I 
do know that people have been killed, innocent people. We saw 
Sierra Leone, where people's arms were chopped off and maimed 
or killed. Thankfully, the Nigerians, even though their country 
was run by a military dictator, did send in troops to try to 
prevent the continued maiming and slaughter of innocent women, 
primarily, and children.
    So I don't know what the solution is that some of us might 
have when you see the inhumanity to man going on. We say it is 
premature. When is it not premature? When is a death not a 
death? I think we have to take a look at where we are going in 
the world because a world with no order, with no so-called 
policing, is going to be a place of total chaos. So I supported 
the President's bold move. I think it took courage for him to 
urge NATO to take the action that it did, and I think that many 
lives were saved. I think that some of the failure was because 
of the position of not having collateral damage to try to avoid 
the killing of innocent civilians. It wasn't like Hiroshima, 
where you drop a bomb and everybody just dies.
    Mr. Bereuter. Will the gentleman yield?
    I thank the gentleman for a little opportunity for a debate 
here. I want to say to the gentleman that I think that U.S. 
policy with respect to its nonintervention in Rwanda was 
definitely a tragic error. I think we were affected by the 
failures and the inept way that things were handled in Somalia. 
We were unwilling, therefore, to take a chance and do what was 
right.
    But I do think the parallels between Rwanda and Kosovo are 
not appropriate. I would just suggest that by our premature--
what I consider to be a premature--effort to give peace a 
chance there, we got all the international observers out of 
Kosovo. We facilitated ethnic cleansing and devastation on the 
part of Yugoslavian Serbs in Kosovo, and the world community 
was totally unprepared for the incredible number of refugees 
that fled across into Macedonia, into Montenegro, into Albania 
itself and other locations.
    I believe that our policy there cost lives, dramatically 
cost lives, in the way it was pursued. That is why I associate 
myself with the gentleman's attitudes about our noninvolvement 
in Rwanda, but I do not think it is parallel.
    I thank the gentleman respectfully for letting me have the 
opportunity to discuss this issue.
    Mr. Payne. Thank you.
    Resuming my time, I appreciate your remarks. Once again, 
though, I believe that the fact that there were refugees should 
not have been a surprise to anyone. Whenever there is conflict 
you have people fleeing, and they go to the closest place that 
they can.
    I think it should actually have been anticipated to have a 
conflict with borders open; to have no refugees is absolutely 
being naive. So it was a surprise that I went to a camp in the 
early days when it was only 40,000 people coming over; and I 
was among the first to go there and actually interview people 
about the atrocities, the brutality that I don't even want to 
discuss here, because it is similar to atrocities that happened 
in Sierra Leone. It is just that they were not publicized, the 
same kind of amputations and mutilation, that was going on 
right there in Kosovo.
    So perhaps there should be a time for a debate. I am one 
who, if it were up to me, there would be no military; but that 
is not the way the world is. I am not a big supporter of our 
$310 billion military budget, or that we hear that it is not 
enough. But I just think that we need to really discuss these 
issues and discuss them clearly. I still contend that if 
something happens--it is easy to say we did the wrong thing. So 
the other solution is, you sit back and nothing happens; 
therefore, you make no mistakes.
    It is just that those people in harm's way continue to be 
brutalized, murdered, and killed. You can say we made no 
mistake, but we don't create any kind of a solution.
    Chairman Gilman. The gentleman's time has expired. We thank 
the gentleman.
    Are there any other Members seeking recognition or offering 
amendments?
    If not, without objection, the previous question is ordered 
on the amendment. The amendment is agreed to without objection. 
It is so ordered.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. I move the Chairman be requested to seek 
consideration of the pending resolution, as amended, on the 
suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska. All those in favor of the motion 
signify by saying aye.
    All those opposed say no.
    The ayes have it. Further proceedings on this measure are 
now postponed.
    We will now move to consider H. Con. Res. 257, concerning 
the emancipation of the Baha'i community.
    The Chair lays the resolution before the Committee.


RESUMPTION OF CONSIDERATION OF H. CON. RES. 257--CONCERNING THE BAHA'I 
                           COMMUNITY OF IRAN


    Chairman Gilman. The clerk will report the title of the 
resolution.
    Ms. Bloomer. ``H. Con. Res. 257, a resolution concerning 
the emancipation of the Iranian Baha'i community.''
    Chairman Gilman. Without objection, the clerk will read the 
preamble and text of the resolution in that order for 
amendment.
    Ms. Bloomer. ``Whereas in 1982, 1984, 1988, 1990, 1992, 
1994 and 1996, Congress, by concurrent resolution----''
    Chairman Gilman. Without objection, the resolution is 
considered as having been read and is open to amendment at any 
point.
    H. Con. Res. 257 deals with a matter of ongoing and severe 
religious persecution. The Baha'i community is Iran's largest 
religious minority. Since 1982, seven resolutions have placed 
the Congress on record expressing our continuing concern and 
disapprobation of the treatment of the Baha'i by the current 
Iranian regime.
    At present, 11 Baha'i are imprisoned in Iran. Four of these 
individuals are under a death sentence. Their crime is 
attempting to convert Muslims to the Baha'i faith, an act each 
of the four has denied, but one that can hardly be considered 
criminal under any accepted standard of international human 
rights.
    It should be noted that under Iranian law the Baha'i are 
considered as unprotected infidels, which means they have 
absolutely no rights of protection under Iranian law. They 
cannot marry or pass on an inheritance or conduct businesses.
    I commend the gentleman from Illinois, Mr. Porter, for his 
forthright support of this community struggling to preserve its 
identity in the land where the Baha'i faith was born. I also 
thank our senior Member of the Committee, Mr. Lantos, for his 
support.
    I urge the Members of our Committee to unanimously support 
this measure.
    Are there any other Members seeking recognition with regard 
to this resolution or offering amendments?
    If not, the gentleman from Nebraska, Mr. Bereuter, is 
recognized to offer a motion.
    Mr. Bereuter. Again, I move the Chairman be requested to 
seek consideration of the pending resolution on the suspension 
calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska, Mr. Bereuter. All those in favor of 
the motion signify by saying aye.
    All those opposed say no.
    The ayes have it. The motion is agreed to.
    Without objection, the Chairman is authorized to make 
motions under Rule 20 relating to a conference on this 
resolution or a Senate counterpart.
    Further proceedings on this measure are postponed.


       S. 2460--EXPANSION OF INTERNATIONAL LAW VIOLATIONS REWARDS


    We will now take up S. 2460, expanding the rewards program 
to include events in Rwanda. This bill was introduced in the 
other body by Senator Feingold, where it was passed on June 24, 
2000.
    The Chair lays the bill before the Committee.
    [The bill appears in the appendix.]
    The clerk will report the title of the bill.
    Ms. Bloomer. ``S. 2460, a bill to authorize the payment of 
rewards to individuals furnishing information relating to 
persons subject to indictment for serious violations of 
international humanitarian law in Rwanda, and for other 
purposes.''
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with.
    The clerk will read the preamble and the text in that 
order.
    Ms. Bloomer. ``Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1----''
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment at any point.
    Mr. Campbell.
    Mr. Campbell. Thank you, Mr. Chairman. And thank you for 
your legislation in 1998, H.R. 4660, which originally included 
just this provision.
    With foresight, Mr. Chairman, you removed the specification 
of Rwanda simply out of concern that it may not pass the other 
body with that specification. Having passed the other body with 
the strong support of our esteemed colleague from Wisconsin, 
Senator Feingold, it is as straightforward to apply the 
benefits of this program to Rwanda, as it is to Yugoslavia.
    A word of background: The proposal gives the Secretary of 
State the authority to offer up to $15 million total--no more 
than $5 million in any one case and no more than $100,000 
without the explicit approval and decision by the Secretary of 
State--to anyone who might provide information leading to the 
arrest and prosecution of individuals for genocide and war 
crimes such as were experienced in Rwanda.
    The legislation already exists for the provision of such 
testimony with regard to the atrocities in Yugoslavia, and it 
ought to apply to the situation in Rwanda as well.
    In conclusion, Mr. Chairman, I renew my appreciation for 
your efforts. You saw this years ago, and it should just have 
been done then; we are correcting that error today. I would 
also just recognize my good friend and colleague, Mr. Payne, 
with whom I have traveled to Rwanda on more than one occasion, 
where we have personally seen the results of the genocide, and 
also to Arusha, Tanzania, where the International War Crimes 
Tribunal is taking place.
    Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Payne.
    Mr. Payne. Thank you. Let me commend you, Mr. Chairman, for 
moving this legislation through. As my colleague said--and I 
associate myself with his remarks--we now have the second link 
of this package that was unlinked last year to ensure passage. 
I think it is timely now that the Rwanda portion be passed.
    I would also like to commend my colleague, Mr. Campbell. I 
was looking over a piece of legislation here a minute or two 
ago, and I was taken aback a bit--I don't know the number; I 
don't have it handy--because it said, ``introduced by Senator 
Campbell,'' and I looked at it again.
    But let me just say, getting back to the point, I certainly 
will miss traveling with you unless you are in the other House. 
But the trip to the Tribunal in Rwanda, seeing the problems 
that they were having there at the hearings, seeing the 
difficulties in getting witnesses, difficulty in getting the 
evidence, the deliberation with which the proceedings were 
going on. Of course, as you know, there was a debate. I am a 
person opposed to the death penalty everywhere, and as you 
know, the Arusha Tribunal does not recognize the death penalty; 
whereas the proceedings in Rwanda, similar hearings, recognize 
the death penalty.
    So there is somewhat of a problem, especially since the 
``big fish'' as they call them, are in Arusha, those who were 
the ones who planned the genocide, and if convicted, of course 
will get a maximum penalty of life; whereas some Rwandans feel 
that they should be in Rwanda where the penalty is more severe.
    But also, I said I support the Arusha Tribunal, since I am 
opposed to the death penalty in any form anywhere in the world.
    But once again I can thank my colleague, Mr. Campbell, for 
the time that we had to travel throughout the world; and I wish 
him success in whatever he pursues in the future.
    Chairman Gilman. Thank you, Mr. Payne.
    Are there any other Members seeking recognition?
    I will take a few moments on the measure.
    On April 6, 1994, a massive genocide began in Rwanda. There 
was no mention of Rwanda in The Washington Post on that day, 
but soon horrific accounts of a bloody and well-planned 
massacre filled its pages. A month later--one month later, 
200,000 or so were dead and more were being killed each and 
every day, but White House spokesmen still quibbled with 
reporters about the definition of a ``genocide.''
    Too many of the masterminds of that ugly chapter in human 
history are still at large. An International Criminal Tribunal 
for Rwanda exists, but it has failed to bring to justice all 
the leaders. Rwanda needs reconciliation, but without 
accountability, there will be no reconciliation.
    Congress extended the rewards program to those providing 
information leading to the indictment of Yugoslavia war 
criminals 2 years ago. It is now time to place a generous 
bounty, in U.S. dollars, on the heads of all those who seek 
power through extermination. These killers have fled to Paris, 
to Brussels, to Kinshasha, and elsewhere. But with the passage 
of this measure, their havens will be less safe.
    Accordingly, I urge my colleagues to support this important 
measure.
    Are there any other Members seeking recognition or 
amendments to the bill?
    If not, without objection, the previous question is ordered 
on the bill.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending bill on the 
suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska, Mr. Bereuter. Those in favor of the 
motion signify by saying aye.
    Those opposed say no.
    The ayes have it.
    Without objection, the Chair or his designees are 
authorized to make motions under Rule 20 with respect to a 
conference on this bill. Further proceedings on this bill are 
postponed.


   TRIBUTE TO THE SERVICE OF MR. SETH FOTI AND TO U.N. HUMANITARIAN 
                        WORKERS AND PEACEKEEPERS


    Before leaving, I want to take the opportunity to recognize 
three recent tragedies. One was the loss of an American 
diplomatic courier in the recent plane crash in Bahrain. We 
extend our sympathy to the friends and family of the deceased, 
Mr. Seth Foti, and to his colleagues in the American foreign 
affairs community. Again we are reminded of the dangers of 
service abroad.
    Also, there were three U.N. humanitarian workers recently 
killed in West Timor. In the past few days previously, two 
peacekeepers were killed. We extend our sympathies to their 
families and our colleagues. We also recognize and salute the 
dedication of peacekeepers and humanitarian workers who put 
themselves in harm's way.


RESUMPTION OF CONSIDERATION OF H.R. 3378, ON RIVER AND OCEAN POLLUTION 
                         IN THE SAN DIEGO AREA


    Because we lack a quorum to report H.R. 3378, we will 
instead be in receipt of a motion to seek its consideration on 
the suspension calendar. I understand that is the intention of 
the committee of primary jurisdiction, the Transportation and 
Infrastructure Committee.
    The gentleman from Nebraska is recognized.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman 
request and seek consideration of that resolution, as amended, 
on the suspension calendar.
    Chairman Gilman. All in favor of the resolution by the 
gentleman from Nebraska signify in the usual manner.
    Opposed?
    The resolution is adopted.
    Without objection, the Chair or his designee is authorized 
to make motions under Rule 20 with respect to a conference on 
this bill or a counterpart from the Senate.
    If there is no further business before the Committee, the 
Committee stands adjourned. I thank the gentlemen for remaining 
until the end of our deliberations.
    [Whereupon, at 12:50 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 7, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8814.001
    
    [GRAPHIC] [TIFF OMITTED] T8814.002
    
    [GRAPHIC] [TIFF OMITTED] T8814.003
    
    [GRAPHIC] [TIFF OMITTED] T8814.004
    
    [GRAPHIC] [TIFF OMITTED] T8814.005
    
    [GRAPHIC] [TIFF OMITTED] T8814.006
    
    [GRAPHIC] [TIFF OMITTED] T8814.007
    
    [GRAPHIC] [TIFF OMITTED] T8814.008
    
    [GRAPHIC] [TIFF OMITTED] T8814.009
    
    [GRAPHIC] [TIFF OMITTED] T8814.010
    
    [GRAPHIC] [TIFF OMITTED] T8814.011
    
    [GRAPHIC] [TIFF OMITTED] T8814.012
    
    [GRAPHIC] [TIFF OMITTED] T8814.013
    
    [GRAPHIC] [TIFF OMITTED] T8814.014
    
    [GRAPHIC] [TIFF OMITTED] T8814.015
    
    [GRAPHIC] [TIFF OMITTED] T8814.016
    
    [GRAPHIC] [TIFF OMITTED] T8814.017
    
    [GRAPHIC] [TIFF OMITTED] T8814.018
    
    [GRAPHIC] [TIFF OMITTED] T8814.019
    
    [GRAPHIC] [TIFF OMITTED] T8814.020
    
    [GRAPHIC] [TIFF OMITTED] T8814.021
    
    [GRAPHIC] [TIFF OMITTED] T8814.022
    
    [GRAPHIC] [TIFF OMITTED] T8814.023
    
    [GRAPHIC] [TIFF OMITTED] T8814.024
    
    [GRAPHIC] [TIFF OMITTED] T8814.025
    
    [GRAPHIC] [TIFF OMITTED] T8814.026
    
    [GRAPHIC] [TIFF OMITTED] T8814.027
    
    [GRAPHIC] [TIFF OMITTED] T8814.028
    
    [GRAPHIC] [TIFF OMITTED] T8814.029
    
    [GRAPHIC] [TIFF OMITTED] T8814.030
    
    [GRAPHIC] [TIFF OMITTED] T8814.031
    
    [GRAPHIC] [TIFF OMITTED] T8814.032
    
    [GRAPHIC] [TIFF OMITTED] T8814.033
    
    [GRAPHIC] [TIFF OMITTED] T8814.034
    
    [GRAPHIC] [TIFF OMITTED] T8814.035
    
    [GRAPHIC] [TIFF OMITTED] T8814.036
    
    [GRAPHIC] [TIFF OMITTED] T8814.037
    
    [GRAPHIC] [TIFF OMITTED] T8814.038
    
    [GRAPHIC] [TIFF OMITTED] T8814.039
    
    [GRAPHIC] [TIFF OMITTED] T8814.040
    
    [GRAPHIC] [TIFF OMITTED] T8814.041
    
    [GRAPHIC] [TIFF OMITTED] T8814.042
    
    [GRAPHIC] [TIFF OMITTED] T8814.043
    
    [GRAPHIC] [TIFF OMITTED] T8814.044
    
    [GRAPHIC] [TIFF OMITTED] T8814.045
    
    [GRAPHIC] [TIFF OMITTED] T8814.046
    
    [GRAPHIC] [TIFF OMITTED] T8814.047
    
    [GRAPHIC] [TIFF OMITTED] T8814.048
    
    [GRAPHIC] [TIFF OMITTED] T8814.049
    
    [GRAPHIC] [TIFF OMITTED] T8814.050
    
    [GRAPHIC] [TIFF OMITTED] T8814.051
    
    [GRAPHIC] [TIFF OMITTED] T8814.052
    
    [GRAPHIC] [TIFF OMITTED] T8814.053
    
    [GRAPHIC] [TIFF OMITTED] T8814.054
    
    [GRAPHIC] [TIFF OMITTED] T8814.055
    
    [GRAPHIC] [TIFF OMITTED] T8814.056
    
    [GRAPHIC] [TIFF OMITTED] T8814.057
    
    [GRAPHIC] [TIFF OMITTED] T8814.058
    
    [GRAPHIC] [TIFF OMITTED] T8814.059
    
    [GRAPHIC] [TIFF OMITTED] T8814.060
    
    [GRAPHIC] [TIFF OMITTED] T8814.061
    
    [GRAPHIC] [TIFF OMITTED] T8814.062
    
    [GRAPHIC] [TIFF OMITTED] T8814.063
    
    [GRAPHIC] [TIFF OMITTED] T8814.064
    
    [GRAPHIC] [TIFF OMITTED] T8814.065
    
    [GRAPHIC] [TIFF OMITTED] T8814.066
    
    [GRAPHIC] [TIFF OMITTED] T8814.067
    
    [GRAPHIC] [TIFF OMITTED] T8814.068
    
    [GRAPHIC] [TIFF OMITTED] T8814.069
    
    [GRAPHIC] [TIFF OMITTED] T8814.070
    
    [GRAPHIC] [TIFF OMITTED] T8814.071
    
    [GRAPHIC] [TIFF OMITTED] T8814.072
    
    [GRAPHIC] [TIFF OMITTED] T8814.073
    
    [GRAPHIC] [TIFF OMITTED] T8814.074
    
    [GRAPHIC] [TIFF OMITTED] T8814.075
    
    [GRAPHIC] [TIFF OMITTED] T8814.076
    
    [GRAPHIC] [TIFF OMITTED] T8814.077
    
    [GRAPHIC] [TIFF OMITTED] T8814.078
    
    [GRAPHIC] [TIFF OMITTED] T8814.079
    
    [GRAPHIC] [TIFF OMITTED] T8814.080
    
    [GRAPHIC] [TIFF OMITTED] T8814.081
    
    [GRAPHIC] [TIFF OMITTED] T8814.082
    
    [GRAPHIC] [TIFF OMITTED] T8814.083
    
    [GRAPHIC] [TIFF OMITTED] T8814.084
    
    [GRAPHIC] [TIFF OMITTED] T8814.085
    
    [GRAPHIC] [TIFF OMITTED] T8814.086
    
    [GRAPHIC] [TIFF OMITTED] T8814.087
    
    [GRAPHIC] [TIFF OMITTED] T8814.088
    
    [GRAPHIC] [TIFF OMITTED] T8814.089
    
    [GRAPHIC] [TIFF OMITTED] T8814.090
    
    [GRAPHIC] [TIFF OMITTED] T8814.091
    
    [GRAPHIC] [TIFF OMITTED] T8814.092
    
    [GRAPHIC] [TIFF OMITTED] T8814.093
    
    [GRAPHIC] [TIFF OMITTED] T8814.094
    
    [GRAPHIC] [TIFF OMITTED] T8814.095
    
    [GRAPHIC] [TIFF OMITTED] T8814.096
    
    [GRAPHIC] [TIFF OMITTED] T8814.097
    
    [GRAPHIC] [TIFF OMITTED] T8814.098
    
    [GRAPHIC] [TIFF OMITTED] T8814.099
    
    [GRAPHIC] [TIFF OMITTED] T8814.100
    
    [GRAPHIC] [TIFF OMITTED] T8814.101
    
    [GRAPHIC] [TIFF OMITTED] T8814.102
    
    [GRAPHIC] [TIFF OMITTED] T8814.103
    
    [GRAPHIC] [TIFF OMITTED] T8814.104
    
    [GRAPHIC] [TIFF OMITTED] T8814.105
    
    [GRAPHIC] [TIFF OMITTED] T8814.106
    
    [GRAPHIC] [TIFF OMITTED] T8814.107
    
    [GRAPHIC] [TIFF OMITTED] T8814.108
    
    [GRAPHIC] [TIFF OMITTED] T8814.109
    
    [GRAPHIC] [TIFF OMITTED] T8814.110
    
    [GRAPHIC] [TIFF OMITTED] T8814.111
    
    [GRAPHIC] [TIFF OMITTED] T8814.112
    
    [GRAPHIC] [TIFF OMITTED] T8814.113
    
    [GRAPHIC] [TIFF OMITTED] T8814.114
    
    [GRAPHIC] [TIFF OMITTED] T8814.115
    
    [GRAPHIC] [TIFF OMITTED] T8814.116
    
    [GRAPHIC] [TIFF OMITTED] T8814.117
    
    [GRAPHIC] [TIFF OMITTED] T8814.118
    
    [GRAPHIC] [TIFF OMITTED] T8814.119
    
    [GRAPHIC] [TIFF OMITTED] T8814.120
    

</pre></body></html>
